<html>
<title> - NOMINATION OF WILLIAM J. BURNS</title>
<body><pre>[Senate Hearing 112-85]
[From the U.S. Government Publishing Office]



                                                         S. Hrg. 112-85
 
                     NOMINATION OF WILLIAM J. BURNS

=======================================================================

                                HEARING

                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 24, 2011

                               __________

       Printed for the use of the Committee on Foreign Relations


         Available via the World Wide Web: http://www.fdsys.gov



                  U.S. GOVERNMENT PRINTING OFFICE
68-223                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b3d4c3dcf3d0c6c0c7dbd6dfc39dd0dcde9d">[email&#160;protected]</a>  


                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
BARBARA BOXER, California            RICHARD G. LUGAR, Indiana
ROBERT MENENDEZ, New Jersey          BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   MARCO RUBIO, Florida
JIM WEBB, Virginia                   JAMES M. INHOFE, Oklahoma
JEANNE SHAHEEN, New Hampshire        JIM DeMINT, South Carolina
CHRISTOPHER A. COONS, Delaware       JOHNNY ISAKSON, Georgia
RICHARD J. DURBIN, Illinois          JOHN BARRASSO, Wyoming
TOM UDALL, New Mexico                MIKE LEE, Utah
              Frank G. Lowenstein, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                              (ii)        

  
?

                            C O N T E N T S

                              ----------                              
                                                                   Page

Burns, Hon. William J., of Maryland, nominated to be Deputy 
  Secretary of State.............................................     4
    Prepared statement...........................................     5
    Responses to questions submitted for the record by:
        Senator John F. Kerry....................................    22
        Senator Barbara Boxer....................................    38
        Senator James E. Risch...................................    39
        Senator Robert Menendez..................................    40
        Senator Marco Rubio......................................    44
Kerry, Hon. John F., U.S. Senator from Massachusetts, opening 
  statement......................................................     1
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     3

                                 (iii)

  


                     NOMINATION OF WILLIAM J. BURNS

                              ----------                              


                         TUESDAY, MAY 24, 2011

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Hon. William J. Burns, of Maryland, to be Deputy Secretary of 
        State
                              ----------                              

    The committee met, pursuant to notice, at 2:33 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. John F. Kerry 
(chairman of the committee) presiding.
    Present: Senators Kerry, Menendez, Casey, Webb, Lugar, 
Rubio, and Lee.

            OPENING STATEMENT OF HON. JOHN F. KERRY,
                U.S. SENATOR FROM MASSACHUSETTS

    The Chairman. The hearing will come to order.
    I am very, very happy to welcome Under Secretary, former 
Assistant Secretary, Ambassador, so many titles, and we hope 
Deputy Secretary of State shortly Burns here. He has been 
nominated by the President to serve as Deputy Secretary of 
State, taking the position that Jim Steinberg has been filling 
ably.
    And, Mr. Secretary, we are really happy that you are 
accompanied. I know Lisa Carty and your two daughters, 
Elizabeth and Sarah, are here, and we are really happy to 
welcome you. I hope you are not missing work or school or 
anything too critical to be here. But we are really happy to 
have you here.
    And may I thank you, as well as the Secretary, for your 
service to our country. The hours, the days, the trips, the 
long time away from home, all the things that public service 
involves are really demanding and taxing on families, and if 
your family is anything like my family, I missed a few plays 
and a few games and a few things here and there. So we say 
thank you to you on behalf of everybody.
    We know Ambassador/Secretary Burns very, very well, both in 
his current job as Under Secretary of State for Political 
Affairs, as well as the prior positions which he has so ably 
filled, including Ambassador to Russia and Assistant Secretary 
of State for Near East Affairs.
    It really is not an exaggeration to say that Secretary 
Burns has been at the center of some of the toughest issues of 
our time over the course of the last years. He has brought a 
steady hand, responsible leadership, thoughtful analysis to 
multiple crises and challenges, and he will need all of his 
talents and skills and experience in his new job.
    We are, as we know, at a really important transitional 
moment in history, one of those moments that you get every so 
often. I cannot recall another era certainly since the fall of 
the Berlin Wall as fraught with peril and uncertainty, as well 
as presenting us such great potential. We have been inspired by 
the people in Tunisia and Egypt who called peacefully for 
freedom and for dignity and who managed to change their 
governments in the most impossible to predict manner.
    We have been moved also by the courageous uprising in Libya 
where people are defiantly fighting an authoritarian dictator 
whose time in office has long since expired.
    But we also watch with trepidation as a brutal crackdown 
takes place in Syria which threatens to spiral out of control 
and to lead to even more civilian killings.
    And that is just the Middle East.
    We cannot overlook our foreign policy challenges in other 
parts of the world. This committee is currently holding a 
series of hearings on how to deal with our engagement in 
Afghanistan and Pakistan. We will spend approximately $120 
billion in Afghanistan this fiscal year alone, and that affects 
our ability to deal with other things across the planet.
    On the broader horizon, we face significant economic and 
political challenges not only from China, India, and Brazil, 
but from emerging powers like Indonesia and Turkey as well. 
Indeed, we understand now better than ever how our national 
security and our economic security are integrally linked.
    In Europe, we see how economic crises risk destabilizing 
governments and aggravating political divisions. All in all, 
the idea of a multipolar world is no longer a catch phrase. It 
is a very real phenomenon with direct implications for the 
United States and for our foreign policy.
    Our own budgetary constraints will also force increasingly 
painful tradeoffs. We can no longer afford to be the world's 
first responder whenever a crisis arises. Yet, we also cannot 
afford to withdraw from the world. Without a robust 
international affairs budget, our war effort in Afghanistan 
will be undermined and fragile progress in Iraq will be 
jeopardized, not to mention hundreds of other efforts that we 
are engaged in around the globe.
    This budget also provides vital humanitarian assistance. It 
fights hunger and the scourge of HIV/AIDS and tuberculosis in 
poor countries around the world. And it helps to show people 
the real values and aspirations of Americans. It prevents the 
spread of cholera in Haiti, distributes food to refugees in 
northern Kenya, and finances shelter for flood victims in 
Pakistan.
    Ambassador Burns, we will need to use your experience and 
expertise to be a powerful voice in defense of these kinds of 
efforts and of the President's budget and programs. And I 
cannot think of anybody with better experience from a career in 
diplomacy and foreign policy who could carry that with greater 
authority and credibility up here on the Hill. So we thank you 
for your continued dedication to public service and your 
willingness to help lead the Department of State through a very 
decisive period of foreign policy.
    Senator Lugar.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Mr. Chairman, it is a privilege to join you 
in welcoming Ambassador Burns once again to the Foreign 
Relations Committee.
    Just as a point of personal privilege, I would mention that 
Ambassador Burns is a good friend. I was thrilled with the 
nomination. It brings back wonderful memories of his 
hospitality in Moscow, and if I can stretch things even 
further, to his dad, General Burns, who went with Sam Nunn and 
me on the first trip after the passage of the Nunn-Lugar 
legislation to Russia, Belarus, and Ukraine to try to think 
through what the implications of the act were, and what the 
United States could do physically. And so it is a marvelous, 
patriotic family. It is represented once again here today, and 
we are so delighted that you have accepted this new challenge.
    We have often benefited from Ambassador Burns' analysis on 
some of the most important issues facing the United States. He 
is an outstanding choice to be the Deputy Secretary, and the 
State Department and our Nation are fortunate that he will be 
taking on this responsibility. Ambassador Burns would be the 
first Foreign Service officer to serve as Deputy Secretary in 
nearly 30 years. His nomination is a testament not only to his 
individual talents, but also to the commitment and service of 
the many career officers who serve our Nation every day in 
dangerous and challenging circumstances around the world.
    Ambassador Burns' deep base of experience in the Middle 
East is critical as the United States forges new relationships 
with governments in the region and responds to transformational 
events. I appreciate also, as I have mentioned, his time as 
Ambassador to Russia. He has a thorough understanding of 
nuclear and arms control issues, Security Council dynamics, 
energy issues, and other global conditions that bear heavily on 
United States security and our relationship with Russia.
    When Deputy Secretary Nides was before this committee last 
November, I stressed the importance of making our foreign 
policy less reactive and promoting management of the State 
Department that does not lose sight of global priorities. This 
committee has worked to promote a more strategic approach to 
American diplomacy. We have attempted to ensure that financial 
resources are efficiently utilized in support of our national 
objectives. I believe that policy choices must be subject to 
the same analysis. There is limited bandwidth within any 
administration to advance foreign policy priorities. While the 
crisis of the moment may garner press attention, lasting 
relationships and effective diplomacy require hard work each 
day.
    As the Department of State manages the shifting sands of 
the Arab Spring and the complex transitions from military to 
civilian engagement in Afghanistan and Iraq, we must not miss 
opportunities to make strategic, long-term gains related to 
nonproliferation, energy security, and international trade. It 
is incumbent on the Deputy Secretary of State to ensure this 
strategic horizon is maintained within the Department of State.
    I look forward to today's discussion and to many future 
conversations with the nominee as we work to advance American 
interests and security around the world. I thank you for 
holding this hearing so promptly, Mr. Chairman.
    The Chairman. Thank you very much, Senator Lugar.
    Secretary Burns, as you know, we are happy to place your 
formal testimony in the record and it will be there as if read 
in full. And we would appreciate probably just a summary if 
that is amenable to you. And we look forward to your testimony.

        STATEMENT OF HON. WILLIAM J. BURNS, OF MARYLAND,
                TO BE DEPUTY SECRETARY OF STATE

    Ambassador Burns. Yes, sir. Well, thank you very much, and 
I promise I will be brief.
    Mr. Chairman, Ranking Member Lugar, members of the 
committee, it truly is an honor to appear before you today as 
President Obama's nominee to become Deputy Secretary of State. 
I am grateful to the President and to Secretary Clinton for 
their confidence in me and in our diplomatic service in which I 
have proudly served for 29 years. If confirmed, I will do my 
best to live up to their trust and to work closely with all of 
you on this committee as I have throughout my career.
    I would like to begin by expressing deep appreciation to my 
family, to my wife, Lisa, and our daughters, Lizzy and Sarah. 
As in so many Foreign Service families around the world, their 
love and sacrifice are a very large part of why I am here 
today. I can never repay them adequately.
    This is the fifth time, Mr. Chairman, that I have appeared 
before this committee for confirmation. I approach this new 
challenges with considerable humility, with great respect for 
Jim Steinberg and all those who have come before me, with an 
abiding commitment to public service, with faith in the power 
of clear-eyed diplomacy in the pursuit of American interests 
and human freedoms, and with few illusions about the 
complicated world around us.
    It is a world with no shortage of troubles, but also plenty 
of opportunities for creative and determined American 
leadership. It is a world which faces the spreading dangers of 
weapons of mass destruction, unresolved regional and sectarian 
conflicts, extremist violence and terrorism, global economic 
dislocation, and transnational health, energy, and 
environmental concerns. It is a world in which American vision 
and drive are essential in crafting relations with emergent and 
resurgent powers and deepening their stake in global 
institutions and a stable international system.
    It is a world in which other people and other societies 
will inevitably have their own realities, not always identical 
to ours. That does not mean that we have to accept those 
perspectives or agree with them or indulge them, but it does 
mean that understanding them is the starting point for sensible 
policy. It is a world in which there is still no substitute for 
setting careful priorities in the application of American power 
and purpose, having clear goals, and connecting means to ends.
    But it is also a world in which the power of our example 
and our generosity of spirit can open the door to profound 
advances, from supporting the universal aspirations fueling the 
Arab Spring to promoting global health and food security. We 
have our share of problems, but it is a mistake to 
underestimate our enduring strengths and our capacity to do big 
and difficult things.
    That capacity will be tested in the months and years ahead. 
It will be tested across the Middle East where revolutions 
which are only just beginning will be as consequential in their 
own way for global order as 1989 was for Europe and Eurasia. It 
will be tested across Asia and the Pacific, in many respects 
the most dynamic and significant part of the world for American 
interests in the next half-century, with the rise of China, the 
growth of our partnership with India, the strengthening of our 
ties in Southeast Asia, and the deepening of our relationships 
with traditional allies like Japan and South Korea, all 
enormously important.
    It will be tested in different ways in Europe where NATO 
remains the strongest link in our chain of overseas security 
partnerships, where the European Union still constitutes 30 
percent of the global economy, where Turkey is an increasingly 
influential partner at the intersection of several crucial 
regions, and where the reset of relations with Russia has 
produced tangible results despite lingering differences. It 
will be tested in Afghanistan and Pakistan where success 
against bin Laden brings us to an important and extraordinarily 
challenging crossroads. It will be tested in Africa, soon to be 
a continent of a billion people, nearly half born since 1995. 
And it will be tested in our own hemisphere where the 50th 
anniversary of the Alliance for Progress this year is a fitting 
moment to focus more of our diplomatic energy and attention 
closer to home, and where growing partnerships with countries 
like Brazil and Colombia, which I visited last week, hold great 
promise.
    Mr. Chairman, I look forward, if confirmed, to doing all I 
can to help President Obama and Secretary Clinton meet all 
these tests. I will work hard with my friends and colleagues in 
other agencies to promote an effective policy process. I will 
work hard with all of you to ensure the closest possible 
cooperation with Congress. And I will also work hard to support 
Secretary Clinton's efforts to transform and strengthen 
America's diplomatic capabilities for the new century unfolding 
before us. Taking care of our people, of the members of the 
Foreign and Civil Services and the Foreign Service nationals 
who serve our country with such dedication and courage in so 
many difficult places around the world, is not only the right 
thing to do, but also a powerful contribution to America's best 
interests.
    Thank you very much again, Mr. Chairman, Ranking Member 
Lugar, members of the committee, for your consideration. I look 
forward to your questions.
    [The prepared statement of Ambassador Burns follows:]

           Prepared Statement of Ambassador William J. Burns

    Mr. Chairman, Ranking Member Lugar, members of the committee, it is 
an honor to appear before you today as President Obama's nominee to 
become Deputy Secretary of State. I am grateful to the President and 
Secretary Clinton for their confidence in me, and in our diplomatic 
service, in which I have proudly served for 29 years. If confirmed, I 
will do my best to live up to their trust, and to work closely with all 
of you on this committee, as I have throughout my career.
    I'd like to begin by expressing deep appreciation to my family--my 
wife, Lisa, and our daughters, Lizzy and Sarah. As in so many Foreign 
Service families around the world, their love and sacrifice are a very 
large part of why I am here today. I can never repay them adequately.
    This is the fifth time, Mr. Chairman, that I have appeared before 
this committee for confirmation. I approach this new challenge with 
considerable humility; with great respect for Jim Steinberg and all 
those who have come before me; with an abiding commitment to public 
service; with faith in the power of clear-eyed diplomacy in the pursuit 
of American interests and human freedoms; and with few illusions about 
the complicated world around us.
    It is a world with no shortage of troubles, but also plenty of 
opportunities for creative and determined American leadership. It is a 
world which faces the spreading dangers of weapons of mass destruction; 
unresolved regional and sectarian conflicts; extremist violence and 
terrorism; global economic dislocation; and transnational health, 
energy, and environmental concerns. It is a world in which American 
vision and drive are essential in crafting relations with emergent and 
resurgent powers, and deepening their stake in global institutions and 
a stable international system.
    It is a world in which other people and other societies will 
inevitably have their own realities, not always identical to ours. That 
doesn't mean that we have to accept those perspectives or agree with 
them or indulge them, but it does mean that understanding them is the 
starting point for sensible policy. It is a world in which there's 
still no substitute for setting careful priorities in the application 
of American power and purpose, having clear goals, and connecting means 
to ends.
    But is also a world in which the power of our example and our 
generosity of spirit can open the door to profound advances, from 
supporting the universal aspirations fueling the Arab Spring, to 
promoting global health and food security. We have our share of 
problems, but it is a mistake to underestimate our enduring strengths, 
and our capacity to do big and difficult things.
    That capacity will be tested in the months and years ahead. It will 
be tested across the Middle East, where revolutions which are only just 
beginning will be as consequential in their own way for global order as 
1989 was for Europe and Eurasia. It will be tested across Asia and the 
Pacific, in many respects the most dynamic and significant part of the 
world for American interests in the next half-century, with the rise of 
China, the growth of our partnership with India, the strengthening of 
our ties in Southeast Asia, and the deepening of our relationships with 
traditional allies like Japan and South Korea all enormously important.
    It will be tested in different ways in Europe, where NATO remains 
the strongest link in our chain of overseas security partnerships; 
where the EU still constitutes 30 percent of the global economy; where 
Turkey is an increasingly influential partner at the intersection of 
several crucial regions; and where the reset of relations with Russia 
has produced tangible results, despite lingering differences. It will 
be tested in Afghanistan and Pakistan, where success against bin Laden 
brings us to an important and extraordinarily challenging crossroads. 
It will be tested in Africa, soon to be a continent of a billion 
people, nearly half born since 1995. And it will be tested in our own 
hemisphere, where the 50th anniversary of the Alliance for Progress 
this year is a fitting moment to focus more of our diplomatic energy 
and attention closer to home--and where growing partnerships with 
countries like Brazil and Colombia, which I visited last week, hold 
great promise.
    Mr. Chairman, I look forward, if confirmed, to doing all I can to 
help President Obama and Secretary Clinton meet all these tests. I will 
work hard with my friends and colleagues in other agencies to promote 
an effective policy process. I will work hard with all of you to ensure 
the closest possible cooperation with Congress. And I will also work 
hard to support Secretary Clinton's efforts to transform and strengthen 
America's diplomatic capabilities for the new century unfolding before 
us. Taking care of our people--of the members of the Foreign and Civil 
Services and the Foreign Service Nationals who serve our country with 
such dedication and courage in so many difficult places around the 
world--is not only the right thing to do, but also a powerful 
contribution to America's best interests.
    Thank you very much again, Mr. Chairman, Ranking Member Lugar, and 
members of the committee for your consideration. I look forward to your 
questions.

    The Chairman. Well, thank you, Mr. Secretary, we look 
forward to having a good dialogue. I do not think there is any 
great controversy here and I am not sure we have to take all 
that long.
    But let me ask you, first of all, with Tom Nides filling 
the position of the Deputy Secretary of State for Management 
and Resources, now you are coming in in the Steinberg position, 
can you share with the committee how you guys will divide up 
responsibilities of what, if anything, new might accompany your 
portfolio that was not there with Secretary Steinberg?
    Ambassador Burns. Well, thank you very much, Senator Kerry. 
I look forward very much to working with Tom Nides who is a 
terrific partner as the Deputy Secretary primarily responsible 
for management and resources issues, which is no small 
challenge, as both you and Senator Lugar indicated earlier.
    I look forward very much to continuing the work that I have 
been involved in in trying to strengthen relations with 
emerging and reemerging powers around the world--India, Brazil, 
Russia; look forward to doing more work on China issues and 
Asia and the Pacific, given the significance of that part of 
the world. I hope to remain very much involved in Middle East 
issues, particularly with the challenges posed by the Arab 
Spring, as you had mentioned earlier.
    But in truth, I think there is no shortage of challenges, 
policy challenges, before us around the world, and I look 
forward to doing my very best to help Secretary Clinton make 
progress in all those areas.
    The Chairman. What, in any of those things that you just 
listed--is there anything in there that is different from where 
Secretary Steinberg was focused?
    Ambassador Burns. No, sir. I have spent a good deal of time 
over the last 2 years on relations with Russia, which I hope to 
continue; relations with India, which the Secretary and the 
President have invested a lot of time; and as I said, given my 
own background in what is never a dull part of the world in the 
Middle East, I expect to continue to be engaged on those issues 
as well.
    The Chairman. Speaking of the Middle East, in light of 
Prime Minister Netanyahu's speech this morning and concluded 
visit, what is your sense of whether we can get a meaningful 
Israeli-Palestinian track going? Where would you say that is in 
your judgment after this visit?
    Ambassador Burns. Well, Mr. Chairman, the President last 
Thursday laid out a very clear vision, I think, of how the 
United States at least thinks that a resumption of negotiations 
ought to be framed. That is based, as the President emphasized, 
on an appreciation strategically that the resumption of 
diplomatic movement toward a two-state solution is deeply in 
our interest, but it is also deeply in the interest of Israel 
and its future as a democratic Jewish state and its own 
security, given demographic and technological realities.
    I think it is also technically important as well to try to 
resume diplomatic movement simply because I think all of our 
experience in the Middle East is that when vacuums exist to the 
peace process, they tend to get filled by unhelpful ideas and 
unhelpful actions such as the notion of moving in September in 
New York in the U.N. General Assembly toward a kind of symbolic 
isolation of Israel and movement toward declaration of an 
independent Palestinian state. The truth, as the President 
emphasized, is that that state desperately needs to be 
produced, but it can only be produced through negotiations, and 
that is the vision that the President has tried to lay out and 
that we are going to work very hard to make progress toward.
    The Chairman. And your reaction to the statement in the 
speech about tearing up the pact with Hamas? Where do you think 
that leaves President Abbas in terms of options and us?
    Ambassador Burns. Well, I think the reconciliation 
agreement, which we have all read about, between Hamas and 
Fatah is something the Palestinians are going to have to sort 
through. What President Obama did last Thursday was to pose, I 
think, a very clear and very legitimate threshold question for 
Palestinians. What is that reconciliation aimed at? What kind 
of Palestinian partner can Israel look at across the table? And 
none of us can expect Israel to sit down at the negotiating 
table with a party that is sworn to its own destruction. So it 
seems to us that the Palestinian leadership has some very 
important questions to address in the weeks and months ahead.
    The Chairman. Well, I would agree with that. I think the 
Prime Minister put the question to them pretty effectively 
today.
    Coming back to the State Department for a minute, having 
spent years there and understanding it as you do, what do you 
see as the biggest challenge now for the Department itself in 
the context of these changes that are taking place globally and 
some of the demands being placed on it and us, particularly in 
light of the budget right now? Can you speak to the internal 
challenge that we do not see every day but which you are 
wrestling with?
    Ambassador Burns. Well, Mr. Chairman, Secretary Clinton has 
addressed this, I think, very clearly and very eloquently in 
the Quadrennial Diplomacy and Development Initiative Review 
which she has launched, modeled on what the Pentagon has done 
for the last couple of decades. And that is aimed at making the 
best possible use of what we recognize are going to be 
increasingly tight resources, strengthening the civilian 
capacities of the American Government to promote American 
economic interests overseas, to promote important global 
initiatives, whether related to global health or to food 
security, to ensuring that within the State Department the 
regional bureaus and the so-called functional bureaus, those 
responsible for economic issues, energy, as well as human 
rights, work closely and effectively together, aimed at the 
President's priorities. In the past, there has sometimes been a 
kind of artificial tension between those bureaus, and I think a 
lot of that has been broken down through the Secretary's 
efforts in the last couple years, and I will do everything I 
can to help in that respect as well.
    So I think it is incumbent upon the Department to 
demonstrate the best possible use of the resources that we 
have, to make the clearest arguments that we can about what is 
at stake for the United States at a moment in history when our 
own economic well-being depends more and more on interactions 
within the global economy, on trade with countries overseas, 
and on the efforts that our embassies and diplomatic missions 
can make to promote those kind of interests. So it is a tall 
order. It is much easier said than done, but I think that is 
something over the next couple of years that is going to be 
extraordinarily important.
    The Chairman. The last question because I know my time is 
running out here.
    Egypt. I am uncomfortable with the amount of money that is 
being put on the table. I just do not think it is enough for 
not just us but the global community to be committing to a 
transition as critical as the one that is taking place in 
Egypt, a quarter of the world's Arab population in one country. 
It does not have all of the sectarian struggles of other 
places, but it has a very clear economic challenge ahead of it.
    It seems to me, in chatting with some of the leaders within 
the Gulf States and the region, there is a preparedness to step 
up, but I do not see the kind of concentrated program or 
initiative that brings people together to do that. Could you 
speak to that for a minute?
    Ambassador Burns. Yes, sir. Well, Senator Kerry, first I 
would stress or reinforce the point that you made that I think 
Egypt's transition is going to be as consequential as any 
challenge that we face across the Middle East in the coming 
years. Egypt is by far the largest of the Arab countries, and I 
think if Egypt makes a successful transition, which I believe 
Egyptians are entirely capable of, it is going to have an 
enormously positive demonstration effect in the rest of the 
region. That political transition cannot succeed without a 
sense of economic possibility, economic modernization, which 
Egyptians themselves have to lead in but which we have a deep 
stake in assisting, as do other Arab States, as do our European 
partners, is going to be extremely important. And that is why 
the President last Thursday emphasized a number of initiatives 
that the United States intends to undertake and where we will 
welcome support from others.
    These relate, first, to the enterprise funds that you and 
others in the Congress have suggested based on our experience 
in Central and Eastern Europe 20 years ago, proven vehicles for 
supporting the expansion of small- and medium-sized 
enterprises, a significant amount of debt relief, as much as a 
billion dollars over the next 3 years aimed and making use of 
creative ideas like debt swaps, and helping to create jobs on 
infrastructure projects which are desperately needed in Egypt, 
and also more ambitiously in the medium term, a wider trade 
initiative that could involve Egypt in particular but also 
other countries in the region, as well as our European partners 
and the United States.
    The dirty little secret about the Arab world in recent 
years has been that Arab countries do not trade much with one 
another, and I think we can do a lot to support successful 
political transitions, democratic transitions, in the Arab 
world by holding out the possibility of those kind of ambitious 
trade initiatives. And I think we have a lot of interest in 
Europe and the President will be following up on this at the G8 
summit over the course of the coming days.
    So there is a lot of possibility here, but there is an 
enormous amount at stake too.
    The Chairman. Well, it is good to hear. I am glad that it 
will be a topic in Deauville. I think that is great.
    Senator Lugar.
    Senator Lugar. Mr. Chairman, I want to raise a question 
really hypothetically today, in order to take advantage of this 
opportunity to talk about State Department funding for both the 
rest of this fiscal year, and the coming year. As you have 
noted, Secretary Burns, on the Senate floor we have been 
preoccupied almost entirely throughout the year thus far with 
the questions of the budget, of deficits, and debt ceiling 
issues. This occupies almost all of our time with a few 
interruptions for votes on nominations and those sorts of 
things.
    On the other hand, here in our Foreign Relations Committee 
hearings, we are talking about very substantial challenges. It 
comes as no surprise, because you will have to be working 
through what we are going to be doing with regard to our 
Embassy in Iraq and likewise in Afghanistan, as well as all the 
contractors that are going to be coming over to do various 
things. All of these things are budget items and they cost 
money. It would appear that about $8 billion has been cut from 
the State Department's budget request just for the rest of this 
fiscal year.
    I met with a delegation of people from AIPAC after Mr. 
Netanyahu's speech today, and they wanted assurance that $3 
billion in aid to Israel is there. I had to respond, as I am 
telling it to you now, that we are not discussing for the 
moment precisely what is in any of these budgets. We are not 
even sure anybody has presented a budget from the standpoint of 
the Senate to the Congress.
    So how do you manage expectations in the various countries 
that we serve, quite apart from anxieties, I would think, of 
Foreign Service officers and other personnel who are going to 
be in these embassies and elsewhere when you have really no 
idea what the budget is going to be for the State Department? 
And when these resolutions finally happen, how do you go about 
informing people or making necessary adjustments? Is any sort 
of back room planning going on for the contingencies that might 
be involved in all this?
    Ambassador Burns. Well, Senator Lugar, it is certainly a 
challenge, as you described, and there is a great deal of back 
room thinking going on about how best to deal with that 
challenge. As I said before, it is essential for the Department 
to demonstrate the most effective possible use of the resources 
that we are provided, to make the best possible case for why we 
believe the resources we have requested, especially for fiscal 
year 2012, are in the best interests of the United States. I 
think, obviously, the so-called overseas contingency operation 
part of our request focused mainly on Afghanistan, on Iraq, is 
extremely important so that we can build on the success that 
has been achieved at such cost in recent years, but build on 
that responsibly.
    I think it is important to remember that the State 
Department budget represents something like 1 percent of the 
total Federal budget. It is a relatively small investment. We 
are very well aware of the pressures on the U.S. Federal budget 
across the board, and again, we want to do our part very 
effectively.
    If you look at a place like Iraq and the kind of civilian 
expenditure that we are requesting for fiscal year 2012, which 
is admittedly an increase from the request level of fiscal year 
2010, you have to weigh that, it seems to me, against the 
reality that the Defense Department request for OCO, for 
overseas contingency operations, is going to be about $45 
billion less as it transitions to civilian leadership. So the 
net result to that I think is a pretty good deal for the 
American taxpayer and a good investment of American funds in 
what is a crucial moment in our relations with Iraq and with 
that part of the world.
    Senator Lugar. Well, needless to say, we hope you will stay 
closely in touch throughout these months. This committee is 
tremendously interested, as you are, in the policies in both 
Iraq and Afghanistan, the safety of Americans who are serving 
there, and the continuity of the influence we have.
    I want to pick up one other controversial point, and that 
is on May 12, Deputy Secretary Steinberg, when he was before 
our committee, said the President has conducted U.S. military 
operations in Libya in a manner consistent with the War Powers 
Resolution and will continue to do so. Last Friday, the 
President wrote to the congressional leadership, indicating 
that U.S. military operations will continue beyond the 60-day 
deadline specified by the War Powers Resolution, although the 
Congress has not authorized these operations.
    This is a point of discussion and some debate. I know our 
chairman has offered a resolution going through various 
thoughts about Libya and essentially commending the President 
for his activities. I will not get into an argument about that. 
I would just say it appears to me that potentially a precedent 
is being set here that, in terms of our overall foreign policy 
history, is not a good one.
    Now, specifically people may come to a conclusion that 
foreign policy can be directed at humanitarian goals, namely 
stopping civilian killings that could occur all over the world 
at various times. The President might say that we need to act 
quickly because otherwise people are going to be lost. But 
conceivably this could fit under the War Powers Resolution even 
though there is not a declaration of war or a commitment to use 
military power of the United States.
    But our engagement in Libya is drifting well beyond 60 
days. Calls to the administration to clarify what we have spent 
already in Libya, in addition to what we are about to spend and 
what we might spend to help reconstruction efforts in Libya at 
some point in the future have not been forthcoming. You cannot 
solve that during this hearing today.
    Let me just say that it is a source of concern for me and I 
think for others. It ought to be, I think, a concern for 
everybody. I think it is important to pin down when the United 
States is going to use military force, to have the proper 
checks and balances with the Congress, to use even the leeway 
of the 60 days, which the War Powers Act does, but not to move 
well on beyond that with almost imagination. So I am hopeful 
that you will convey my serious concerns to the State 
Department, as you are confirmed, and that we can have more 
conversation about it.
    Ambassador Burns. I certainly will, Senator. And I 
appreciate the importance and seriousness of the concerns that 
you raise. I also appreciate the fact that there has been 
longstanding debate, including within the Congress, about the 
War Powers Resolution. As the White House press secretary said 
last Friday, the President believes that our actions regarding 
Libya have been and remain consistent with the War Powers 
Resolution. The President also indicated in the letter that he 
sent to the congressional leadership last Friday his firm 
conviction that it is extremely important, when engaged in any 
military action, even a limited military action of the sort 
that we are engaged in in support of the coalition in Libya, 
that we engage with, consult with, and have the support of the 
Congress. And that is why the President welcomed the 
introduction last night of the bipartisan resolution 
cosponsored by Senator Kerry, Senator McCain, and other members 
along those lines. But I will certainly convey the concern.
    Senator Lugar. Thank you very much.
    The Chairman. Thanks very much, Senator Lugar.
    Mr. Secretary, I ask your indulgence. I have a meeting that 
I need to go to in a few moments. Senator Casey is going to 
preside in my absence.
    I just want to thank you again. I think it is obvious from 
the tone and questions here that there is no issue of your 
being confirmed, I think, and we want to try to move to get it 
done as rapidly as we can and look forward to continuing our 
relationship with you once you get in there formally.
    So, Senator Casey, I recognize you and I thank you for 
chairing in my absence.
    Senator Casey [presiding]. Thank you, Mr. Chairman.
    Under Secretary Burns, we are grateful for your public 
service, your appearance here today and your ongoing commitment 
to engage in and accept the responsibility of public service 
yet again. We do not have enough time to list all of the 
positions that you have held, but they have all been difficult 
and they have all been positions of significant responsibility. 
So we thank you for that.
    Also, thank your family as well. As you pointed out in your 
statement, when you serve the public, they do as well by 
extension, and I know the support they give you. So we are 
grateful for that.
    I wanted to turn first to Iran. I do not need to recite for 
you the challenges that Iran presents for the region and the 
Middle East and the world. We are, of course, concerned about 
two basic areas. One is their nuclear capability and their 
determination to have a nuclear weapon in my judgment and I 
think in the judgment of others. In addition to that, even 
absent that, even if that were not a threat, as it is, their 
demonstrated support for terrorism throughout the region and 
well beyond the region, especially when it comes to their 
support for Hezbollah and Hamas, as well as others.
    So I would ask you a couple of questions in this area. 
There was a 2011 annual worldwide threat briefing by our 
director of national intelligence, and it states ``Iran has the 
scientific, technical, and industrial capacity to produce 
enough highly enriched uranium for a weapon in the next few 
years if it chooses to.''
    We know that one strategy alone does not a successful 
solution make, but we know that we have sanctions in place. I 
am one of the Senators cosponsoring legislation today to 
further enhance those sanctions. But we know that sanctions are 
part of it and they are working and they are necessary even 
though we want to do more in that area.
    We also know that diplomacy plays a huge role here, and 
your work has demonstrated that.
    So we have got more to do to hold the regime accountable. I 
just wanted to get your sense based upon your experience and 
also in light of the position that you are going to be assuming 
in the event of your confirmation, which I am confident about. 
What can you tell us about how you will use the position of 
Deputy Secretary of State to be able to push forward an agenda 
that would lead to both a diplomatic strategy, as well as to 
keep the pressure on the Iranian regime in other ways?
    Ambassador Burns. Thank you very much, Senator.
    I think we remain very firmly committed to enforcing all of 
the many laws that we have available to us now, as well as 
international understandings, such as U.N. Security Council 
Resolution 1929, to maximize the pressure on the Iranian regime 
to engage seriously in diplomacy on the nuclear issue, 
something we have not seen to date.
    Earlier today, we announced a series of significant new 
measures with regard to sanctions against Iran, including seven 
new entities, companies, designated under CISADA, as well as 16 
new entities or individuals designed under the so-called INKSNA 
sanctions against Iran, North Korea, and Syria. I think those 
are significant steps forward and we are continuing to look at 
other steps that we can take to demonstrate our seriousness 
and, beyond our seriousness, the seriousness of the 
international community on these issues.
    It is instructive that the European Union yesterday also 
announced about 100 new companies or firms that they are 
sanctioning in continuation of the international effort against 
Iran.
    We have a strong platform on which to build over the course 
of the last year, I think an unprecedented set of sanctions 
built on Resolution 1929, what the EU did after that, what we 
did nationally, what a number of our other partners around the 
world have done. It is having an impact on Iran. It has not yet 
produced the kind of serious willingness to engage in diplomacy 
that we had hoped for, and in the absence of that indication of 
seriousness, we are going to continue to try to step up the 
pressure in every way that we can.
    Senator Casey. The question that Middle East peace--or I 
should say the challenge that that presents to us got, I think, 
more difficult in the last couple of weeks. We could point to 
the last couple of months as being a time period within which 
it got more difficult, more complicated, even as complicated as 
it always is because of a number of developments. One of the 
developments which in my judgment makes it exceedingly more 
difficult is the unity government between Hamas and Fatah and 
the decision made by President Abbas to form that unity 
government, what that means for the region and for any kind of 
successful peace process.
    In the aftermath of that, I and a number of Senators sent a 
letter to President Obama. This letter is dated May the 6th. I 
will not read all of it, obviously, but the one line that I 
think is particularly relevant and important--and I wanted to 
get your reaction to this--is we say in the last paragraph of 
this May 6 letter--and I am quoting--``we urge you''--urging 
the President here--``to make clear to President Abbas and to 
the international community the United States opposition to a 
Fatah-Hamas unity government that does not fully accept the 
Quartet Principles.'' Those principles, meaning that Hamas must 
renounce violence, recognize Israel, and agree to abide by past 
agreements.
    In light of that condition or set of conditions not having 
been effectuated or agreed to, what can you tell us about how 
the administration views not just the peace process more 
generally but specifically the peace process through the lens 
of this difficult question?
    Ambassador Burns. Thank you, Senator.
    It is obviously a very serious concern. The President was 
quite clear in his speech last Thursday in posing what is 
really a threshold question for Palestinians about what efforts 
at reconciliation or unity are really aimed at because none of 
us can expect Israel to sit down at the negotiating table with 
a party that is sworn to its destruction, as the President 
underscored. And so I think in the coming days and weeks, the 
Palestinian leadership has some very important questions before 
it about what this reconciliation agreement means, about how it 
is going to translate into a unity government, about what the 
policies and positions of that government are going to be, and 
whether or not that makes it possible for there to be a 
resumption of negotiations. We have made clear that we are 
prepared to do our part, but the Palestinians need to 
demonstrate their willingness to be that kind of a partner in 
negotiations.
    Senator Casey. I am out of time, but I would urge you, of 
course, and the State Department, as well as the administration 
overall and the President, to continually reassert that policy 
because repetition on a question like this is very important to 
get that message out.
    Thank you very much.
    We will move to Senator Rubio.
    Senator Rubio. Thank you.
    Congratulations. The fact that this is not full today is a 
good sign that your nomination is going well. I wanted to 
personally thank you for your service to our country and to 
your family for the sacrifice that being in the Foreign Service 
means to families. So we are grateful for that.
    I have three quick questions. One is really more of your 
impressions on something.
    In the time that I have been here and on this committee, 
which has been a great experience so far, it is obviously very 
apparent the world faces some major issues, big problems. And 
clearly no nation on earth can solve any of these problems by 
themselves. The Israel-Palestinian issue, Syria, Libya, Egypt, 
North Korea. I mean, you name it. It takes coalitions to 
basically address these. And coalitions have to be put together 
and they have to be led. And right now, we probably are the 
only nation on earth that can do that.
    My impression--and this is just something that I think 
others have discussed in the past, but I was wondering what 
your impressions are--is many of the international institutions 
that are now in place are really creatures of the cold war, 
post World War II. What is your assessment? It may not be a 
fair question in this forum. Maybe we could talk about it 
later. Maybe you have not given it a tremendous of thought, and 
perhaps you have. But what is your assessment of our existing 
institutions in terms of their ability to deal with the 
realities of the 21st century? It is dramatically different 
than just 20 years. And I mean all of them. They are all 
important, but the United Nations, NATO, here in this 
hemisphere, the OAS. Have we reached a point where maybe we 
should start on a global scale having a conversation about 
either retooling some of these organizations and institutions 
to really kind of line up more with the realities of the 21st 
century and the kind of challenges we are facing?
    Ambassador Burns. That is a very important point, Senator. 
I think some of that is underway already, but I think it needs 
to be approached with greater vigor and determination because 
whether you look at some of the important regional 
organizations like the OAS, for example, which I think has 
itself made clear the importance of reform and updating to meet 
a different set of challenges in the 21st century or at global 
institutions like the United Nations, the U.N. Security Council 
where the administration has made clear the importance of 
updating the Security Council to reflect the realities of the 
21st century, or looking at the global financial institutions, 
the World Bank, where a great deal of work has gone into this 
already, but where, if you look at the kinds of economic 
challenges that we and countries around the world face, those 
institutions are going to need to adapt. So it is a longer 
conversation, but I think it is a very important one.
    Senator Rubio. Just kind of building on that, obviously 
there is a lot of concern and you hear a lot of talk about the 
rise of China, what that means, but also in the context of 
that, I think there is opportunity to find real partners to 
take on some of these issues. And not just China. I mean, 
Turkey and Brazil, India. I mean, these are countries we hope 
to encourage to get involved with other nations to deal with 
some of these issues. That is a real challenge. What are your 
thoughts on what we can do here in the Senate and beyond to be 
constructive in that regard?
    Ambassador Burns. I do not think we face a bigger 
challenge, and I think that is why you have seen in this 
administration and also in the last administration a lot of 
effort focused on some of those relationships like India, 
Brazil as you mentioned as well, both in terms of strengthening 
our own bilateral relationships and partnerships with those 
countries, but also encouraging them to play a more active 
role, in the case of India, across Asia and the Pacific where I 
think India is emerging as a more and more influential player. 
And in the case of Brazil, working not only on issues in our 
own hemisphere, but also increasingly on the kind of global 
issues, whether it is in food security or energy or other areas 
where we have a great deal in common.
    So I cannot think of a bigger challenge as we look out over 
the coming years and decades than spending a lot of time and 
attention on those relationships and helping to deepen the 
stake of those countries in the kind of stable international 
system that serves our interests and promotes our values as 
well.
    Senator Rubio. I have two quick questions on specifics.
    The first is a couple of weeks ago we met with some of the 
folks that were here on behalf of the Libyan transitional 
council. I apologize if this was covered in the testimony 
earlier. They had come and basically what they asked for is 
access to some of these funds that have been frozen, either 
direct access to the funds or a line of credit secured by those 
funds. Is there any update? I know Senator Kerry was working on 
some legislation of some sort regarding that issue. What is the 
latest on efforts, if any, to provide those funds or make 
something available?
    Ambassador Burns. It is something which we are very much 
committed to. We are working with the Congress with a variety 
of committees here to try and develop legislation which will 
enable us to do this, in other words, to get access in one way 
or the other, as you described, to frozen assets so that it can 
be used to meet the humanitarian needs of the Libyan people. 
And we are confident that we will be able to do that. We want 
to work very closely with the Congress to do it because there 
is a real sense of urgency connected to this.
    Senator Rubio. And the last question--and it is one that I 
think we are doing well on and should continue to build on--is 
the State Department's view globally as a leader on trafficking 
in modern day slavery, largely in part to the Trafficking in 
Persons report that has demonstrated an ability to influence 
governments' capacity and their willingness to combat this kind 
of criminal activity.
    What do you envision are some of the steps we can take to 
institutionalize these policies and procedures and continue to 
make that a core principle of our foreign policy? I think it is 
an important issue. I think we have taken the leadership on it 
globally, and I would imagine you would consider that to be a 
priority as well. Any thoughts on how we build on our successes 
there already?
    Ambassador Burns. I think it is a difficult challenge, and 
we have work to do in not only streamlining the process but 
ensuring that it is a high priority in our agendas with other 
governments. And I think as you said, Senator, we have made 
good deal of progress in countries where, in their own self-
interest, not as a favor to us or to the trafficking in persons 
process, countries that made significant strides to deal with 
this problem.
    Senator Rubio. And I am going to sneak one quick one in. It 
is important but it is topical.
    Yemen. A careful balancing act between a nation whose 
resources have been used to assist in the war on terror but 
also an increasingly dysfunctional situation that looks 
untenable. It is a much broader question. I know the 
administration is grappling with what the right approach there 
is. Any updates on that?
    Ambassador Burns. No, I mean, just to express at this 
moment anyway deep disappointment with the fact that President 
Saleh in Yemen chose once again not to follow through on his 
commitment to make a peaceful transfer of power. This is an 
issue on which we have worked closely with the Gulf Cooperation 
Council states. We will continue that. But this is a very 
fragile moment, as you said, and we will do everything we can 
to encourage movement in the direction of a peaceful 
transition. There is a lot at stake here in Yemen.
    Senator Rubio. Thank you. Congratulations.
    Ambassador Burns. Thank you.
    Senator Casey. Thank you, Senator Rubio.
    I will be relinquishing my gavel to Senator Menendez who is 
our next questioner.
    Senator Menendez [presiding]. Thank you, Mr. Chairman.
    Ambassador, thank you for your service to our country. I 
appreciate what you have done over a long period of time.
    Let me start off by saying something positive on the State 
Department. I have been one of those who have been pressing 
really hard about our sanctions regime on Iran, and I am very 
pleased to see that the Department has listed about seven 
different companies who are engaged in activities related to 
the supply of refined petroleum products to Iran, including the 
supply of gasoline, and they come from various countries. So 
that is a very good step forward, and I am thrilled to see it.
    Yesterday I introduced legislation, that I coauthored with 
Senators Kyl and Lieberman, with Senators Casey, Gillibrand, 
Collins, and Kirk, among others as cosponsors, to further 
pursue the closing of loopholes that we believe exist 
particularly with the Iran sanctions regime. Part of what we 
call for in that legislation is for the State Department to 
undertake a diplomatic initiative to qualitatively expand the 
U.N. sanctions against the regime.
    Are you committed, if you are confirmed, to robust 
enforcement of our sanctions regime and pursuing more vigorous 
efforts at the United Nations and in our bilateral 
relationships to ensure that we are doing everything in our 
power to prevent Iran from acquiring nuclear weapons 
capability?
    Ambassador Burns. Yes, sir, I certainly am.
    Senator Menendez. And since you are going to be, in 
essence, the chief counselor to the Secretary of State, is that 
what you will be advocating for in that position?
    Ambassador Burns. I certainly will, Senator. And I think, 
as you mentioned, the further actions that we took this morning 
under the CISADA sanctions, the seven entities designated 
there, as well as 16 under the INKSNA, I think underscores the 
commitment of this administration to follow through.
    Senator Menendez. Now, I want to follow up on your answer 
to Senator Casey about the Fatah-Hamas. I was also the author 
of that letter.
    I listened to the President's speech very intently. I read 
it once it was printed. And when he gets to the point about 
Fatah-Hamas, he says the Palestinian Authority will have to 
convince Israel that in fact--how am I supposed to deal or 
negotiate with someone who, as part of that entity, is 
committed to obliterate my existence?
    But he did not say that we will invoke U.S. law which says 
that if you have an unreformed Hamas, U.S. taxpayer dollars 
will not flow to such an entity. Is it your understanding that 
if, in fact, we have an unreformed Hamas, that U.S. law calls 
for the suspension of those funds to a Palestinian Authority 
that includes Hamas?
    Ambassador Burns. Senator, we are certainly committed to 
applying U.S. law, and our view of Hamas has not changed. It is 
a foreign terrorist organization and we do not engage with 
Hamas.
    We will have to see how the so-called reconciliation 
agreement translates in terms of a government of unity, as well 
as the policies and positions of that government. There is a 
distance between where we are today and seeing those realities. 
And we will certainly have to make our judgments accordingly, 
but we will certainly apply U.S. law.
    And I think in the meantime, it is important for us, until 
we reach that point, to continue to plan to provide support to 
the very worthwhile efforts of people like Prime Minister 
Fayyad who has made enormous progress over the last few years 
that would have been very hard to predict a few years ago in 
creating the institutions for an eventual Palestinian state.
    Senator Menendez. I appreciate your answer. Let me just say 
I think it will be very hard for those of us who have cast 
votes in support of helping the Palestinian Authority, as part 
of a Middle East package, to be voting to send U.S. taxpayer 
dollars to an entity that includes an organization recognized 
by the United States Government as a terrorist one. And I 
always understand the diplomatic speak and I get nervous about 
it. I think it should be very clear that there will be a very 
strong will in the Congress of the United States to not have 
U.S. taxpayer dollars go to such an entity. The definition of a 
unity government may be of interest to the State Department. 
What is of interest to those of us who have a fiduciary 
responsibility to the taxpayers of this country is not to have 
U.S. dollars flow to a terrorist organization. And so I 
understand distinctions, but I hope distinctions at the end of 
the day do not get so blurred that we will be on a collision 
course.
    Let me ask you about a different part of the world. We are 
losing our Assistant Secretary for the Western Hemisphere. I 
chair that subcommittee. We do not have an Ambassador to 
Mexico. These are incredibly important assignments. And I do 
not get a sense that at a time in which the hemisphere is 
continuously a challenge to us that we are as committed as is 
necessary. I know one just became a reality, but the other one 
has existed. What is your expectation, and what is it that you 
will do when you get to the State Department to make this a 
critical focus?
    Ambassador Burns. Senator, you are absolutely right. They 
are extremely important posts. The Secretary is firmly 
convinced of the high priority that needs to be attached to 
both of those posts, and we are moving as quickly as we can, 
working with the White House, toward sending up nominations 
because it is very important to fill those posts for all the 
reasons that you said. This is a critical moment for the 
hemisphere and for our interests in it.
    Senator Menendez. Especially on Mexico, which has been 
open, I hope we will get someone who both understands the 
United States-Mexico relationship, will not have the challenge 
that we had most recently, and can be very meaningful. And I 
will be pursuing that with the Secretary's office and hopefully 
with you upon your confirmation.
    There is something that is pretty outrageous going on at 
State that I have been pursuing for the 19 years that I have 
been in the Congress--House and Senate. And that is diversity 
at the State Department. It has the worst record of any of the 
Federal Departments, which is incredibly disappointing to me. 
And what demonstrates the Department's indifference to this 
issue is that the State Department failed to even provide data 
for 2009 at the OPM for its annual report to the President on 
Hispanic employment in the Federal Government. It was the 
only--``only'' underlined--Federal agency not to respond.
    Ambassador Burns. Well, Senator, I am not aware of the lack 
of response, but if that is the case, we will fix that because 
the Secretary is certainly not indifferent to the issue of 
diversity and has made extraordinary efforts to try and ensure 
that the State Department, both the Foreign and Civil Services, 
reflect one of the great strengths of the United States, which 
is its diversity. Certainly the Department, the Foreign Service 
in particular, is a more representative place than it was when 
I joined the Foreign Service 29 years ago. And this is the 
result not only of the efforts of Secretary Clinton but 
Secretary Powell, Secretary Rice before. So I promise to make 
this a high priority because I share your conviction that it is 
extremely important, and I do believe we have made progress in 
recent years and we will keep at it.
    Senator Menendez. I appreciate that, and I raise it because
you are going to be in a position to affect it. I chaired--and 
I will close on this--the nomination hearing for Deputy 
Secretary Nides when his confirmation process was before the 
committee. And I asked him about the Department's dismal 
record. This is a record that goes back in time. It is not this 
Secretary, but the Department's history. It still is the worst 
Department in the Federal Government.
    And in Nides' oral and written response, he agreed that 
this was a priority for the Department, that there is more that 
could be done, and that the Department was going to find 
innovative ways to improve minority recruitment, retention, and 
the subjectivity as to whether or not you can orally express 
yourself, which I always found interesting. But yet, we do not 
even have a response to OPM. The only Federal Department that 
did not respond.
    So I hope we can change that and I look forward to working 
with you to do so.
    Ambassador Burns. I will certainly do everything I can 
working with Tom Nides and with the Secretary on this issue 
because it is a high priority and we need to demonstrate that--
--
    Senator Menendez. I prefer that we get a response that we 
can work with instead of a legislative response.
    Senator Webb.
    Senator Webb. Thank you, Mr. Chairman.
    Ambassador Burns, congratulations. I can think of no one 
who is better qualified to do the job that you are about to 
undertake. I have great admiration for your adroitness as a 
diplomat, but also your wealth of knowledge.
    I want to get in three or four questions here, not in terms 
of great length of prefatory remarks.
    First, I have two serious concerns about the Libyan 
situation as you will recall. In fact, the last time you were 
before this committee was the day before, or the day of, the 
U.N. vote on the Libyan situation. This is sort of in the 
middle of an exchange that we had. I had said that in terms of 
international law it becomes rather awkward when we support a 
movement yet to be fully defined in its attempt to overthrow a 
government which we still formally recognize. And your answer 
was that yes it is certainly a complicated proposition, which 
is very ``Burnsian,'' shall we say, but precise.
    Do we still have diplomatic relations with the Qadhafi 
government under the definition of international law?
    Ambassador Burns. Well, Senator, we have suspended our 
diplomatic operations----
    Senator Webb. So is it basically where we still were on 
March 18, 2011?
    Ambassador Burns. Yes, sir.
    Senator Webb. We have diplomatic relations but we have 
suspended them. We have not broken them.
    Ambassador Burns. That is correct, sir.
    Senator Webb. Are we then considering recognizing this 
other entity? Has it been vetted? What is going on here?
    Ambassador Burns. Well, we have the issue of recognition 
under review of the transition national council. What we have 
done over the last couple of months I think is strengthened the 
practical ties we have to the group. We have developed a much 
clearer understanding of it. I think it is a credible 
representative of a wide spectrum of Libyans. We have a 
diplomatic office in Benghazi now.
    Senator Webb. To cut to the chase, we still have not 
severed diplomatic relations with the Qadhafi government 
against which we are participating in the use of military 
force.
    Ambassador Burns. That is right, sir. We have suspended our 
diplomatic operations.
    Senator Webb. But not broken; not severed them.
    Ambassador Burns. Yes, sir.
    Senator Webb. I just find that extremely odd.
    The second concern that I have is with respect to the 
precedent for the unilateral decision by a President of the 
United States to use force in an environment where we were not 
under attack, not under a threat of attack, not actually 
implementing a treaty, not rescuing American citizens, and we 
were not responding directly to an incident as we were in 1986, 
when I was at the Pentagon. We retaliated in Libya, as far as I 
can tell, for the notion of a humanitarian situation that 
existed outside of the realm of the United States vital 
interests if you listen to what Secretary Gates was saying. 
That disturbs me in terms of precedent. What comes out of this? 
Have we established a new precedent, or what is your thought on 
that?
    Ambassador Burns. Well, I think what led to the President's 
decision was a variety of factors. I mean, first, you did have 
an imminent humanitarian catastrophe. I have no doubt but that 
you would have seen a blood bath in Benghazi had there not been 
outside intervention.
    Second, you had an unprecedented call from the Arab League 
to the Security Council to intervene to protect civilians.
    Third, you had a number of our closest NATO partners, the 
same people we look to for cooperation in places like 
Afghanistan, who were urging us to join them in acting.
    Fourth, you had a wider set of stakes, you know, the 
countries on either side of Libya, Egypt and Tunisia going 
through their own revolutions in very fragile states 
themselves. And the unrest in Libya could easily have further 
aggravated those----
    Senator Webb. I understand the logic that was given, and I 
am empathetic with a good bit of it. But there were a lot of 
countervailing logics as well. There were key U.N. 
abstentions--China, Russia, India, Germany--I think there were 
five but cannot pull the fifth one up out of my head right now. 
I find it really troubling, and particularly now 2 months 
later, that a unilateral decision by a President of the United 
States in an environment when these other factors were not 
present that has been ongoing and could set a very disturbing 
precedent for how decisions are made for the use of force. I am 
going to lay that down. It is something for further discussion.
    The TIP report was mentioned. I want to commend to you the 
results of a hearing that I held on this. I hope you will look 
at it because I think the legislation is getting ready to be 
renewed. I think there are some inconsistencies in the way that 
we are carrying out an otherwise well-intentioned policy that 
have particular implications in Asia. This was the focus of the 
hearing. The benchmarks that we have been using are convictions 
rather than a nation with a very settled rule of law that does 
not actually get to convictions and also comparing a country 
against itself, when the implication is that they are being 
compared against other countries.
    The classic example that came up in that hearing was that 
we have given Nigeria a 1 in our TIP reports, we have given 
Japan a 2 and Singapore a 2 Watch List. As you know, these are 
very stable societies who are able to deal with the rule of law 
in a way comparable, in many cases, to our own. I think that we 
need to fix the law so that we measure the right things as we 
put these policies forward because it is causing a great deal 
of resentment among people who are otherwise our close friends.
    Ambassador Burns. No. Senator, I read the transcript of 
that hearing, and I think it was very helpful. I mean, it is a 
complicated process to go through, but I think you raise some 
very legitimate questions which we will sort through.
    Senator Webb. I hope we can work with you on that because 
we are going to come up with some suggestions as to how we can 
implement the intentions of this policy but in a way that our 
friends and people whose governmental systems are pretty stable 
can understand.
    Thank you, Mr. Chairman.
    Senator Menendez. Thank you, Senator Webb.
    Seeing no other members, Ambassador, thank you for your 
appearance here today; your answers.
    The record will remain open for 48 hours. We urge you, if 
you get any questions, to answer them as expeditiously as 
possible
so that we can have your nomination move as expeditiously as 
possible.
    And with that, this hearing is adjourned.
    [Whereupon, at 3:41 p.m., the hearing was adjourned.]

       Additional Questions and Answers Submitted for the Record


        Responses of William J. Burns to Questions Submitted by
                         Senator John F. Kerry

                   ROLE AS DEPUTY SECRETARY OF STATE

    Question. With Tom Nides filling the position of Deputy Secretary 
of State for Management and Resources, how will the two of you 
coordinate policy initiatives and resource capabilities? What issues do 
you expect to oversee in relation to Deputy Secretary Nides?

    Answer. I look forward to close and continuous coordination with 
Deputy Secretary of State for Management and Resources Nides on the 
full range of issues on the U.S. foreign policy agenda. I also seek the 
closest possible cooperation with Congress as we pursue a robust agenda 
to advance U.S. interests and promote prosperity, security, and 
universal human freedoms throughout the world.

                                 LIBYA

    Question. I understand that the formal recognition of the 
Transitional National Council would have important legal and political 
ramifications. But the administration seems to be inching toward a kind 
of political recognition. Members of Congress and senior administration 
officials have engaged with Council members, the administration has 
begun to provide the Council with nonlethal assistance, and the State 
Department has established a de facto diplomatic presence in Benghazi. 
On May 19, 2011, the President of the United States, referring to the 
Council, stated that ``the opposition has organized a legitimate and 
credible interim council.'' What are the practical and political 
implications of the President's statement about the TNC? What are the 
factors being considered and potential obstacles with regard to a more 
formal political recognition?

    Answer. The issue of recognition remains under review and we are 
continuing to assess the capabilities of the TNC as we deepen our 
engagement with the opposition. Last month, we welcomed TNC Executive 
Council President Jibril and Finance Minister Tarhouni in Washington. 
We also have sent our highest level representative yet to Benghazi with 
a personal message of support from President Obama and an invitation to 
open a representative office in Washington--an offer the TNC accepted. 
We continue to encourage other nations to do the same. We have 
recognized the TNC as a legitimate and credible interlocutor for the 
Libyan people. Special Envoy Chris Stevens continues to meet with as 
broad a spectrum as possible of Libyans involved in the opposition writ 
large, not just the TNC.
    International support for the TNC is deepening, through steps we 
have taken collectively in the context of the Libya Contact Group and 
beyond, on the economic and diplomatic fronts. We together are working 
to put the TNC on firmer financial footing, taken steps to license oil 
sales by the TNC, and embraced the idea that a future Libyan Government 
should honor any financial obligations the TNC assumes on behalf of the 
Libyan people. The international community is providing nonlethal 
supplies and deepening diplomatic ties.
    The TNC has consistently rejected terrorism and extremist 
influences and declared their respect for the human rights of all 
Libyans. The TNC and other members of the opposition have also truly 
opened up parts of Libya to the international community and NGOs for 
the first time in 40 years. The TNC has expressed its dedication to a 
peaceful transition to an inclusive, democratic government. In that 
regard, it has announced a roadmap that sets out its vision to bring 
democracy to Libya, including convening an interim national assembly 
and drafting a constitution after Qadhafi has left power.

    Question. What sorts of assistance if any is the administration 
prepared to offer the TNC at this stage?

    Answer. We are assessing and reviewing options for the types of 
assistance we could provide to the Libyan people, and are consulting 
directly with the opposition and our international partners. The 
President has directed up to $25 million in transfers of nonlethal 
items from U.S. Government stocks to key partners in Libya such as the 
Transitional National Council (TNC). The list of potential ``non-lethal 
commodities'' that have been or will be provided was developed based on 
consultations with the TNC and our own assessment of what is useful and 
available, and includes medical supplies, boots, tents, personal 
protective gear, and prepackaged rations. The first shipment, including 
Meals Ready to Eat (MREs) arrived in Benghazi on May 10. The 
Departments of State and Defense will continue to work closely with our 
partner nations and the Libyan TNC to coordinate on the types of 
nonlethal assistance to be provided, in an effort to make the 
assistance as effective as possible and minimize duplication of effort.
    In terms of financial assistance, we have been supporting the Libya 
Contact Group's efforts to establish a Temporary Finance Mechanism 
(TFM) and a Libyan Information Exchange Mechanism (LIEM) that would 
facilitate much-needed financial contributions and other in-kind 
assistance to the TNC. We are strongly encouraging our international 
partners to assist the TNC directly or through one or both of these 
mechanisms.
    The administration is also discussing legislation with Congress 
that would permit the use of a portion of frozen regime assets for 
broadly humanitarian purposes in Libya. Under proposed legislation, 
humanitarian assistance would include basic life-saving and life-
support help, including commodities and subsidies needed to maintain 
basic living conditions among the populatio--for example, access to 
water, sanitation, food, shelter, and health care. This list is 
necessarily nonexhaustive, as circumstances could arise that would make 
other types of assistance, e.g., utilities (electricity, fuel), 
necessary to maintain basic living conditions among the population. 
This would not include offsetting the cost of our military action in 
Libya.

    Question. What planning is underway to support a stable political 
transition in post-Qaddafi Libya?

    Answer. As we continue to deepen our engagement with the Libyan 
opposition, we are encouraged by their commitment to democratic 
principles and their roadmap for a political transition following the 
departure of Qadhafi from power. It will ultimately be up to the Libyan 
people to choose their own leaders and government structures, and to 
address the reconciliation of a Libya marred by 40 years of 
dictatorship and the regime's use of brutal force against civilians. 
Any transition will have to look at creating institutions that respect 
the integrity and sovereignty of a united Libya and that reflect the 
Libyan people's genuine aspirations for freedom, democracy, and a 
responsive and transparent government. We believe that the U.N. should 
have the lead role in coordinating international support for a 
political transition in Libya. We are working very closely with our 
international partners to explore the goals and priorities in a post-
Qadhafi Libya, and develop the most effective ways in which the 
international community can contribute. As the TNC has pointed out, 
Libya is an oil-rich country and will be well positioned to bear many 
of the costs of a post-Qadhafi transition.

    Question. How would you assess NATO's performance in operations 
over Libya? Are members of NATO in full agreement as to the scope of 
the Security Council's authorization to use force in Libya? For 
example, are there differences of opinion among coalition members as to 
the extent to which targeted attacks on regime forces are authorized by 
Resolution 1973? If so, please describe those differences.

    Answer. We have made significant progress in Libya since NATO, 
acting in response to an unprecedented call from the Arab League to the 
United Nations Security Council, launched Operation UNIFIED PROTECTOR 
(OUP) on March 27, 2011. Since that date, NATO and its coalition 
partners have flown more than 9,000 sorties, including 3,443 strike 
sorties. Within days, we had averted an imminent humanitarian 
catastrophe in Benghazi, where there would likely have been a bloodbath 
were it not for outside intervention. In addition, we have loosened the 
regime's grip on Misrata and have significantly degraded Qadhafi's 
naval, air, and land forces. Throughout OUP, NATO has exercised great 
care to minimize the danger to civilians.
    Regarding alliance cohesion, on April 14 NATO Foreign Ministers 
made clear the three military objectives of the NATO mission: NATO and 
our partners will keep up the pressure until all attacks and threats of 
attack against civilians have ended; the regime has verifiably 
withdrawn all military and paramilitary forces; and full, safe, and 
unhindered humanitarian access is guaranteed to all Libyans in need of 
assistance. NATO Allies and partners are united in recognizing these 
objectives. Other coalition members also strongly back NATO's efforts 
in support of UNSCRs 1970 and 1973, though they recognize--as do we--
that this crisis cannot be resolved by military means alone. The 
international community has also imposed a variety of sanctions and 
pressure on the Qadhafi regime. Moreover, NATO decided June 1 to extend 
the mission for another 90 days beyond June 27.

                  EGYPT, TUNISIA, AND THE ARAB SPRING

    Question. Rampant unemployment, particularly among youth, has been 
one of the drivers of the Egyptian and Tunisian revolutions earlier 
this year and remains a significant challenge for both countries going 
forward. How will the administration use economic support to help 
facilitate long-term economic and political stabilization in Egypt and 
across the region?

    Answer. The events of the past 5 months provide us a historic 
opportunity to help the Egyptian and Tunisian Governments close the gap 
between their current economic realities and their citizens' 
aspirations. Although both countries face significant challenges, 
economic modernization is consistent with, and can help reinforce, 
their democratic transitions.
    We recognize the importance of helping both governments meet their 
short-term economic stabilization requirements as well as longer term 
economic modernization needs. These two objectives are not mutually 
exclusive, but they do require flexible, creative approaches--
including, where appropriate--repurposing our current and planned 
assistance programs to meet new requirements. For example, in Egypt we 
are restructuring our economic support around four key pillars: support 
for economic policy formulation, support for economic stability, 
support for economic modernization, and the development of a framework 
for trade integration and investment.
    Support for economic policy formulation: We will offer the Egyptian 
people concrete support for economic policy formulation alongside our 
democratization efforts. We will use bilateral programs to support 
economic reform preparations, including outreach and technical 
assistance from our government, universities, and think tanks to 
individuals, NGOs, and political parties.
    Support for economic stability: President Obama announced that the 
United States will provide Egypt with up to $1 billion in debt relief 
under a debt swap arrangement. This package can help turn the debts of 
the past into investments in Egypt's future.
    This bilateral initiative is part of a broader multilateral 
strategy in which we are working closely with our international 
counterparts to leverage resources. In light of the economic 
dislocations associated with regional transitions, we are galvanizing 
financial support from international financial institutions, 
multilateral investment banks, and other regional actors to help meet 
near-term financial needs.
    On May 27, G8 leaders initiated the Deauville Partnership, which 
will maximize G8 and multilateral support behind Egypt's and Tunisia's 
transitions. It commits Partnership Countries to help address 
underlying economic challenges and meet financing needs through a 
multifaceted approach. These international efforts will ensure that 
there is a multiplier effect to our bilateral assistance.
    The G8 also called on the IMF to respond to the Arab Spring by 
developing a sound macroeconomic program to help meet external 
financing needs, as well as for multilateral development banks to 
deliver enhanced, front-loaded and coordinated assistance in support of 
Egypt's reform program and development goals.
    Recognizing the role that the European Bank for Reconstruction and 
Development (EBRD) played in Central and Eastern Europe's transitions, 
we are committed to working with our international counterparts to 
support a reorientation of the EBRD to support transitions in the 
region.
    Support for economic modernization: Egypt and Tunisia will need to 
build a stronger private sector, which will increase entrepreneurial 
activity and generate new jobs. To this end, we would like to establish 
Enterprise Funds for Tunisia and Egypt to stimulate private sector 
investment, promote projects that support competitive markets, and 
encourage public/private partnerships. In addition, the Overseas 
Private Investment Corporation (OPIC) will create a 10-year loan 
guarantee facility (LGF) in Egypt which could provide up to $700 
million in loans to small- and medium-sized enterprises (SMEs), 
supporting over 50,000 local jobs. OPIC will also seek to provide up to 
$1 billion in guarantees and/or loans to public/private partnerships in 
order to promote growth in mutually agreed-upon sectors of the Egyptian 
economy. As in all similar structures, OPIC will stipulate the uses of 
the funding and ensure that there will be no budget cost to OPIC or the 
American taxpayer. Through the interest rate charged, the Egyptian 
Government will bear the cost of the financing.
    Support for trade: Because Egypt and Tunisia have not enjoyed the 
benefits of trade integration, we are prepared to begin robust 
discussions with Egypt and Tunisia and their regional counterparts on a 
set of strategic trade initiatives.

    Question. How satisfied is the administration with the ongoing 
political transition occurring in Egypt?

    Answer. The interim Egyptian Government, led by the Supreme Council 
of the Armed Forces (SCAF), has taken some important steps in the right 
direction. For example, the SCAF has stated its commitment to lasting 
reform and free and fair elections. The SCAF has also begun clarifying 
procedures for September's parliamentary elections. A new political 
parties law has reduced the burden on political parties applying for 
registration, and the elections will likely include participation from 
a wide range of political parties, some of them new.
    The SCAF has also revised the political participation law to 
include the right to vote using a national identification card and to 
ensure full judicial supervision of elections. These reforms will 
promote the transparency required for effective elections that instill 
public confidence.
    We welcome these signs of democratic progress, even as we recognize 
that the SCAF faces no shortage of challenges. Egypt's youth leaders 
and new political parties must scramble to organize themselves in time 
for the September elections. The draft electoral regulations do not 
address whether the 64-seat quota for women in Parliament will remain 
in effect. The SCAF met with representatives of youth groups on June 1, 
but many activists continue to criticize the lack of transparency in 
SCAF decisionmaking. Recent interrogations of bloggers, journalists, 
and judges critical of the SCAF and military raise further concerns 
about the military's commitment to freedom of expression. Concerns also 
remain about the military's treatment of protesters and the use of 
military courts to try civilians. The U.S. Government continues to 
raise these concerns with SCAF officials.

    Question. President Obama stated in his speech on May 19 that the 
United States must prioritize Tunisia and Egypt as they transition to 
people-powered democracies. Egypt has always held a priority position, 
however, Tunisia has not. How will the Department increase resources to 
match the potential in Tunisia to become a successful and independent 
democracy in North Africa?

    Answer. If confirmed, I will maintain this administration's 
commitment to helping secure a transition that delivers democratic 
results and sustainable economic development for the people of Tunisia. 
The administration has identified approximately $30 million to help 
Tunisians prepare for the series of elections on their horizon, to 
increase participation in a pluralistic, competitive political culture, 
to promote transparency and accountability, to support indigenous 
justice and rule of law processes, to support youth employability, and 
to advance private sector development.
    Of the approximately $30 million in assistance we have identified 
for Tunisia, the Department of State's Office of the Middle East 
Partnership Initiative (MEPI) is providing $20 million to support 
Tunisian efforts during their democratic transition. These funds are 
being channeled through Tunisian and international NGOs to shape an 
independent, professional, and pluralistic media sector, build a 
vibrant civil society, strengthen democratic political parties, develop 
a sound framework for free elections, enact economic reforms, and 
expand entrepreneurship. MEPI has already awarded initial grants to 
both Tunisian and international NGOs and continues to seek innovative 
proposals through a year-long open competition.
    USAID is providing approximately $10 million in support for 
elections and inclusive political processes. For example, USAID's 
Office of Transition Initiatives is starting a program to encourage a 
peaceful and lasting political transition in the interior governorates 
of Tunisia. This program will encourage new and emerging groups to 
contribute to the national dialogue and will also promote stabilization 
through small-scale community development projects.
    Finally, because trade and investment will be critical to creating 
jobs and building a more robust Tunisian economy, we are working with 
the Department of Commerce, the U.S. Trade and Development Agency 
(USTDA), and private sector business advocacy groups such as the U.S. 
Chamber of Commerce to promote increased interest and opportunity for 
American businesses in Tunisia. We are working with the Overseas 
Private Investment Corporation (OPIC) to facilitate financing for small 
to medium enterprises (SMEs) and startup companies. We are also working 
with the Departments of Commerce and Treasury to encourage the legal 
and economic reforms needed to facilitate more open trade and private 
sector investment.
    In addition, we continue to support the establishment of a 
Tunisian-American Enterprise Fund to stimulate private sector 
investment, promote projects that support competitive markets, and 
encourage public/private partnerships, and look forward to continuing 
our work with Congress on this effort.

    Question. What changes will be made within the Bureau of Near 
Eastern Affairs and at U.S. Embassy Tunis?

    Answer. Embassy Tunis and the Bureau of Near Eastern Affairs have 
established a new political/economic reporting officer position in 
Tunis, and have requested a political analyst position that we expect 
to be filled for 2012. Public Diplomacy is funding the creation of a 
new locally engaged staff member to work on outreach, particularly 
engaging Tunisian youth and exploring new technologies and social 
media. Embassy Tunis has also requested an additional Assistant 
Regional Security Officer position to meet new requirements created by 
an ever-changing security environment.
    Two Foreign Service officers will travel to Tunis on temporary duty 
to assist with increased demand for political and economic reporting in 
the leadup to the Tunisian elections. An officer from the Secretary's 
office of the Coordinator for Reconstruction and Stabilization's 
Civilian Response Corps will cover a 12-week gap this summer, focusing 
on investment and bilateral economic issues, requests for assistance 
and advocacy from U.S. businesses, and outreach to U.S. companies doing 
business or considering doing business in Tunisia. The political 
reporting officer from the Civilian Response Corps will develop 
relations with new political party activists within the Islamist Nahda 
party and observe the elections scheduled for July 24. With the 
increase in bilateral assistance, USAID's Office of Civilian Response 
has provided two officers on a temporary basis to assist post with 
elections assistance and grants administration.

    Question. In light of Tunisia's unique importance as the first 
country in the region to undergo a revolution and begin the transition 
to democracy, what is the U.S. Government doing to foster a sustainable 
political transition and long-term economic stability in that country?

    Answer. If confirmed, I will maintain this administration's 
commitment to helping secure a transition that delivers democratic 
results and sustainable economic development for the people of Tunisia. 
The administration has identified approximately $30 million to help 
Tunisians prepare for the series of elections on their horizon, to 
increase participation in a pluralistic, competitive political culture, 
to promote transparency and accountability, to support indigenous 
justice and rule of law processes, to support youth employability, and 
to advance private sector development.
    Of the approximately $30 million in assistance we have identified 
for Tunisia, the Department of State's Office of the Middle East 
Partnership Initiative (MEPI) is providing $20 million to support 
Tunisian efforts during their democratic transition. These funds are 
being channeled through Tunisian and international NGOs to shape an 
independent, professional, and pluralistic media sector, build a 
vibrant civil society, strengthen democratic political parties, develop 
a sound framework for free elections, enact economic reforms, and 
expand entrepreneurship. MEPI has already awarded initial grants to 
both Tunisian and international NGOs and continues to seek innovative 
proposals through a year-long open competition.
    USAID is providing approximately $10 million in support for 
elections and inclusive political processes. For example, USAID's 
Office of Transition Initiatives is starting a program to encourage a 
peaceful and lasting political transition in the interior governorates 
of Tunisia. This program will encourage new and emerging groups to 
contribute to the national dialogue and will also promote stabilization 
through small scale community development projects.
    Finally, because trade and investment will be critical to creating 
jobs and building a more robust Tunisian economy, we are working with 
the Department of Commerce, the U.S. Trade and Development Agency 
(USTDA), and private sector business advocacy groups such as the U.S. 
Chamber of Commerce to promote increased interest and opportunity for 
American businesses in Tunisia. We are working with the Overseas 
Private Investment Corporation (OPIC) to facilitate financing for small 
to medium enterprises (SMEs) and startup companies. We are also working 
with the Departments of Commerce and Treasury to encourage the legal 
and economic reforms needed to facilitate more open trade and private 
sector investment.
    In addition, we continue to support the establishment of a 
Tunisian-American Enterprise Fund to stimulate private sector 
investment, promote projects that support competitive markets, and 
encourage public/private partnerships, and look forward to continuing 
our work with Congress on this effort.

    Question. In his May 19 speech, President Obama said ``we must also 
build on our efforts to broaden our engagement beyond elites.'' How 
does the State Department plan to translate that statement into policy?

    Answer. The popular movements for democracy, economic opportunity, 
justice, and dignity across the Middle East and North Africa are 
empowering new actors--many of them ordinary citizens never before 
involved in politics--who are challenging traditional elites. 
Throughout the region, youth, civic activists, women, and entrepreneurs 
are finding their political voices and helping to shape the future of 
their countries. If confirmed, I will continue the Department of 
State's engagement with and support for these nonelite actors through a 
broad range of outreach tools and assistance programs. As we leverage 
this unique moment in history, we will maximize every opportunity to 
engage with people in the region who share our values and our 
commitment to democracy.
    Our Ambassadors and Embassy officials are engaging actively 
emerging actors across the region, encouraging meaningful political and 
economic reform, and stronger commitments to respect the rights of all 
men, women, and children. We are using the expertise, leverage, and 
partnerships developed by democracy assistance programs, through the 
Bureau of Near Eastern Affairs' Middle East Partnership Initiative 
(MEPI) and the Bureau of Democracy, Human Rights and Labor (DRL), to 
provide support to individuals and organizations throughout the region. 
These programs enable locally led change and pave the way for civil 
society actors and organizations to lead democratic change in their 
countries.
    In Tunisia and Egypt, we are moving U.S. civil society support into 
the countryside and out of the capitals and larger cities. In Egypt, 
current DRL programs focus on: coalition-building, party-strengthening, 
and public opinion research and analysis training in advance of 
upcoming parliamentary and Presidential elections, advocacy training 
and capacity-building for independent organized labor, and professional 
training for independent citizen journalists and bloggers. All of these 
programs include women and youth components. In Egypt, MEPI's local 
grants program is expanding in size and providing civic education 
training to women in rural areas to help them become advocates for 
their communities' needs, and imparting entrepreneurial and business 
skills to girls from poor regions of Cairo. In Tunisia, MEPI has 
invested $20 million through local and international Non-Governmental 
Organizations. With high unemployment in the Middle East, especially 
among young people, we believe that our outreach must capture the 
youth's entrepreneurial spirit, reward creativity and promote skills 
that lead to jobs and opportunity. For example, MEPI funds the 
``Generation Entrepreneur Project,'' which empowers 22,000 young people 
throughout the Middle East to begin their own entrepreneurial ventures. 
A MEPI funding recipient, the Education for Employment Foundation 
(EFE), provides fellowship and internship programs to place Arab youths 
in EFE's employable-skills training at affiliate organizations 
throughout the Middle East and North Africa, as well as in Washington, 
DC, and Spain. MEPI currently funds successful EFE projects in Egypt, 
Jordan, Tunisia, West Bank and Gaza, and Yemen.
    Additionally, MEPI funds programs for nonelite students. For 
example, the Student Leaders program has brought over 1,000 young 
people from the region to the United States for training, most of whom 
have never traveled outside of their home countries. They develop 
leadership skills and expand their understanding of civil society, as 
well as the democratic process and how both may be applied in their 
home communities, and upon their return home, they are eligible to 
apply for seed funds for relevant projects. Additionally, MEPI's 
Tomorrow's Leaders Scholarship Program provides scholarships per year 
to high school students in the Middle East and North Africa who are 
economically disadvantaged, but who have the drive and energy to be 
leaders. They learn in a U.S.-accredited university in the region, take 
a civic engagement course and study abroad in the United States, 
participating in an internship in the United States. MEPI has recruited 
an additional 51 students for the upcoming fall semester.
    Furthermore, we have focused on utilizing technology to maximize 
our outreach to nonelites, including youth. For example, in Egypt, we 
are focusing on online voter education and rights education, and are 
helping to create an online monitoring and watchdog presence in advance 
of the elections.
    Additionally, MEPI's initiative, E-Mediat: Electronic Media Tools, 
Technology & Training is a public/private partnership that helps 
grassroots organizations in the Middle East and North Africa use 
digital technology to tell their stories, build membership and connect 
to others around the world.

                                 SYRIA

    Question. President Obama signed Executive orders on April 29 and 
May 18 imposing sanctions on Syrian individuals and entities, including 
President Bashar al-Assad himself. What effects do you anticipate the 
sanctions and mounting international political pressure will produce?

    Answer. We expect that our sanctions, and those imposed by the EU 
and other countries, will make clear to the Syrian people, the Syrian 
Government, and its allies that the international community will not 
stand idly by while human rights abuses are committed, and that we will 
hold individuals accountable for human rights violations. As Secretary 
Clinton has said, ``Every day that goes by, the position of the 
government becomes less tenable and the demands of the Syrian people 
for change only grow stronger.'' We believe that the mounting 
international pressure will underscore to the Asad regime that it must 
end its use of violence and commence a process of political transition 
that responds to the aspirations of the Syrian people.

    Question. How is the United States coordinating sanctions efforts 
with the EU, Turkey, and Arab countries? What about organizations like 
the United Nations, the GCC, and the OIC?

    Answer. We are working closely with numerous countries that share 
our aim of ending the violence and support a democratic transition in 
Syria. We have coordinated directly with our allies in the European 
Union, who imposed an arms embargo and their own targeted sanctions on 
May 9 and May 23.
    We led the call for a special session on Syria at the U.N. Human 
Rights Council in Geneva on April 29. That session passed a strong 
resolution condemning the Syrian Government and calling for an 
investigation by the Office of the High Commissioner for Human Rights. 
In addition, we actively lobbied at the United Nations to prevent Syria 
from being elected to the U.N. Human Rights Council. Our lobbying 
efforts against the wholly inappropriate Syrian candidacy resulted in 
Syria withdrawing its candidacy on May 11. We will continue to look at 
other multilateral for additional opportunities to pressure Asad and 
his regime. We also are in frequent contact with our regional partners 
in the GCC and Turkey, and at senior levels are urging them to use 
their influence over the Asad regime to cease its human rights abuses 
and begin the transition to democratic and representative government.

    Question. What tools beyond sanctions are being considered to 
further pressure the Syrian Government to refrain from using violence 
against protestors and address the legitimate demands of its people?

    Answer. We continue discussions with our U.N. Security Council 
partners on action to condemn the Syrian Government's brutal repression 
of its citizens. Another session of the U.N. Human Rights Council is 
underway and we are working with our partners on the Council on next 
steps there, as well. As the demonstrations and the violence against 
them has shown no signs of abating in more than 12 weeks, it is 
critical to hold Syria's leaders accountable for the unjustified and 
reprehensible violence they persist in using against peaceful 
protestors as well as the widespread arrests of activists and their 
family members. If we do not see any movement toward ending the 
violence and the implementation of a meaningful democratic transition, 
we will continue to work with our international partners on how we can 
apply additional pressure.

                           HAMAS-FATAH UNITY

    Question. In his May 19 speech, President Obama said, ``the recent 
announcement of an agreement between Fatah and Hamas raises profound 
and legitimate questions for Israel: How can one negotiate with a party 
that has shown itself unwilling to recognize your right to exist?'' 
Have senior PLO and PNA officials offered a response to this question?

    Answer. As the President made clear in his May 19 remarks, this is 
a threshold question for the Palestinians, one that the Palestinian 
leadership will need to address in the weeks and months ahead. We 
believe that President Abbas remains committed to peace. President 
Abbas has made clear that he supports PLO commitments renouncing 
violence and recognizing Israel. He has remained firm in his faith that 
an independent Palestine living side by side with Israel in peace and 
security is both possible and necessary.
    While we understand the general outline of the Fatah-Hamas 
agreement, many substantive, and vital, details that could affect our 
peace efforts remain undetermined or subject to further negotiation or 
implementation. What is important now is that the Palestinians ensure 
implementation of that agreement advances the prospects of peace rather 
than undermine them. We will continue to watch as President Abbas and 
the Palestinians make these important choices.

    Question. How will a potential Fatah-Hamas interim government 
impact American support for the Palestinian institutions? What factors 
will the State Department use in evaluating this new government?

    Answer. We will ensure that U.S. policy is fully consistent with 
U.S. law.
    Our position on Hamas has not changed; Hamas is a designated 
Foreign Terrorist Organization. As the new Palestinian Government is 
formed, we will assess it based on its policies and will determine the 
legal and policy implications for our relations with, and assistance 
to, the PA. Right now, the current Palestinian Authority government 
remains in place under the leadership of President Abbas and Prime 
Minister Fayyad. As such, U.S. assistance to and contact with the PA is 
continuing.
    Our assistance funding has been critical to progress in building 
capable Palestinian institutions, including the improvements to the PA 
Security Forces (PASF). The PASF play an essential role in helping to 
ensure public security for both Israelis and Palestinians. The PASF 
remain under standing orders to maintain law and order and pursue 
terrorist elements, and security cooperation between the Israel Defense 
Forces (IDF) and the PASF continues.

    Question. Debates are ongoing in both Washington and Baghdad on 
whether there should be a successor agreement to the U.S.-Iraqi 
Security Agreement, which requires that all U.S military forces 
withdraw from Iraq by December 31, 2011. Does the State Department have 
an opinion on the advisability of renegotiating the terms of this 
agreement? How does uncertainty about the future American presence in 
Iraq impact on planning for size and scope of the State Department 
mission in 2012 and beyond?

    Answer. The President is committed to implementing the 2008 U.S.-
Iraq Security Agreement by withdrawing all of our troops by the end of 
2011, and we continue to work toward this transition.
    Any post-2011 U.S. military mission would require a formal request 
from the Iraqi Government, and to date, no such request has been made. 
If the Iraqi Government were to make such a request, it would be given 
serious consideration.
    Whether we get an Iraqi request for some continued U.S. military 
support beyond 2011, it is essential that we continue with our 
currently planned civilian presence so that it will be mission-capable 
by October 1, 2011. Our civilian-led mission after 2011 will continue 
to support the President's goal of a sovereign, stable, and self-
reliant Iraq, through engagements and programs that will help solidify 
our long-term economic, political, and cultural partnership and support 
Iraq's reintegration into the region and the global economy.

                                 YEMEN

    Question. What factors will the United States use in evaluating 
assistance in Yemen going forward with regard to economic assistance, 
security cooperation, and democracy and governance?

    Answer. The United States employs a two-pronged strategy in 
delivering assistance to Yemen: We provide military equipment and 
training in support of counterterrorism (CT) operations while also 
delivering economic and governance assistance that curbs the long-term 
drivers of instability and extremism. We are constantly assessing the 
needs of the Yemeni people and the strategic priorities of the United 
States. For our security assistance, we will continue to evaluate the 
threat of terrorism against the U.S. homeland--most prominently 
manifested in al-Qaeda in the Arabian Peninsula (AQAP)--as well as the 
capacity and willingness of the Yemeni Government to tackle this 
threat. We believe that AQAP represents a clear and present danger to 
the U.S. homeland as exemplified by recently attempted attacks; 
however, we will closely monitor and evaluate our assistance to ensure 
we meet all legal requirements and that it is not misused.
    Yemen suffers from extreme poverty and soaring unemployment and 
population growth rates. The Yemeni riyal is declining against world 
currencies, the Central Bank of Yemen is printing riyals to finance 
government programs, and prices of key commodities are rising. The 
ongoing political crisis has exacerbated the already challenging 
economic conditions. Yemen's future economic recovery will require a 
comprehensive stabilization and investment plan supported by 
substantial international assistance. As the needs will be great, we 
will work to ensure that our programming is coordinated with other 
international donors and will continue to monitor and evaluate the 
effectiveness of our program as we help the Yemeni people meet these 
challenges. Our humanitarian and development programming continues to 
the extent possible in the operating environment. We are prepared to 
increase our democracy and governance assistance in a period of 
political transition that would lead to elections and capacity-building 
for a newly formed government.

    Question. How has the ongoing unrest in Yemen affected U.S. 
assistance efforts and bilateral counterterrorism cooperation?

    Answer. As a result of the ongoing unrest, our Embassy in Sana'a is 
on departure status and has reduced its personnel. Our assistance, as 
well as program monitoring and evaluation, is necessarily limited by 
our minimized presence and a lack of freedom of movement. However, we 
continue our programming and counterterrorism cooperation to the extent 
possible in the fluid environment.

                                  IRAN

    Question. What effects have the Arab Spring had on the pro-
democracy movement in Iran?

    Answer. As in other parts of the Middle East, there continues to be 
deep-rooted dissatisfaction among the Iranian people with their 
government. As President Obama recalled in his speech on the Middle 
East, peaceful protests in the region began in the streets of Iran 2 
years ago. While the opposition movement in Iran has not been able to 
stage any significant antigovernment protests in recent months, a 
substantial divide continues to exist between the government and the 
governed. While it hypocritically applauds the universal rights of 
others in the region, the Iranian Government continues to restrict the 
free flow of information, and intimidates, arrests, and convicts those 
Iranians whose views are known to be at odds with the ruling 
establishment. It also assists Syria in suppressing its opposition.
    As we do throughout the region, the administration provides 
training and tools to civil society activists to foster freedom of 
expression and the free flow of information on the Internet and via 
other communication technologies. These new technologies empower 
citizens to achieve their own aspirations by helping people raise their 
voices, share information, and strengthen their ability to act 
collectively.

    Question. What is the status of the P5+1 process?

    Answer. Preventing Iran from acquiring a nuclear weapon continues 
to be one of the administration's top foreign policy priorities. Our 
P5+1 partners (China, France, Germany, Russia, and the U.K.) and we are 
committed to a negotiated solution to resolving concerns over the 
nature of Iran's nuclear program. The P5+1 remains unified and 
committed to the dual track approach of clear-minded engagement and 
pressure to persuade Iran to abide by its international obligations and 
bring transparency into its nuclear activities.
    The United States and our P5+1 partners have made clear our genuine 
commitment to dialogue, and came prepared to negotiate with Iran when 
we met in December 2010 in Geneva and again in January 2011 in 
Istanbul, but it has been clear Iran is yet unwilling to engage 
seriously. The May 8 letter from Supreme Security Council Secretary 
Jalili to High Representative Ashton contained nothing new to indicate 
any change in Iran's willingness to negotiate seriously with the P5+1. 
In the interim, we will continue to work closely with our partners in 
the P5+1 and beyond to vigorously implement UNSCR 1929, to coordinate 
further measures, and to implement U.S. sanctions law.
    The United States and its P5+1 partners remain committed to 
pursuing a diplomatic solution. The door remains open, and the choice 
is Iran's to make.

    Question. Does the State Department have an opinion on S. 1048, the 
``Iran, North Korea, and Syria Sanctions Consolidation Act of 2011''?

    Answer. We strongly support the goal of preventing Iran, North 
Korea, and Syria from acquiring nuclear weapons. For example, we have 
assembled a strong international coalition and have secured the 
toughest multilateral sanctions against Iran to date. In addition, we 
have been using all the tools provided by Congress. On May 24, the 
Secretary imposed sanctions on 7 companies for violations of the 
Comprehensive Iran Sanctions, Accountability and Divestment Act 
(CISADA), enacted on July 1, 2010, and also imposed sanctions on 14 
entities and 2 individuals under the Iran, North Korea and Syria 
Nonproliferation Act.
    The administration is always looking for additional ways to prevent 
the spread of nuclear weapons. The Department is closely examining S. 
1048, and we look forward to working with you and other Members of 
Congress on this and any other legislation aimed at achieving our 
shared goals.

                                BAHRAIN

    Question. On May 17, incumbent Deputy Secretary James Steinberg 
visited Bahrain with Near Eastern Affairs Assistant Secretary Jeffrey 
Feltman and National Security Council Senior Director Puneet Talwar. 
What message did Secretary Steinberg deliver to Bahraini Government 
officials and what was their response? What was the reason for not 
including nongovernmental figures on his schedule?

    Answer. Deputy Secretary Steinberg, Assistant Secretary Feltman and 
NSC Senior Director Talwar met King Hamad bin Isa Al-Khalifa, Prime 
Minister Khalifa bin Salman Al-Khalifa, Foreign Minister Khalid bin 
Ahmed Al-Khalifa and other senior Bahraini officials during their brief 
visit to Manama May 17. Deputy Secretary Steinberg stressed U.S. 
Government concerns regarding the Government of Bahrain's crackdown, 
including detentions of opposition figures and demolitions of places of 
worship, and emphasized the need for accountability for those 
responsible for human rights violations. He also urged the Government 
of Bahrain to take proactive steps to create a positive environment for 
reconciliation and credible dialogue, noting that a resolution to the 
crisis in Bahrain requires a political solution, not a security 
solution. Deputy Secretary Steinberg also reinforced the longstanding 
strategic ties between our two countries, including our cooperation on 
confronting the threat posed by Iran.
    Deputy Secretary Steinberg's visit was focused on sharing U.S. 
Government concerns with the Bahraini leadership. Assistant Secretary 
Feltman has conducted several meetings in recent months with civil 
society representatives, including leaders of the mainstream opposition 
and the National Unity Gathering. Additionally, our Embassy maintains 
regular contact with a broad spectrum of actors in Bahraini society.

    Question. How have Bahraini Government officials and citizens 
responded to President Obama's call last Thursday to release peaceful 
protestors and engage in a national dialogue?

    Answer. King Hamad lifted the State of National Safely on June 1, 
which has resulted in a shift of responsibility for maintaining law and 
order from the Bahrain Defense Forces (BDF) to the civilian Ministry of 
Interior. Our Embassy has noted a reduction in the deployment of 
military assets in Manama and other parts of Bahrain. On May 29, King 
Hamad delivered a televised speech, in which he stated that 
comprehensive and unconditional dialogue will begin in early July. We 
consider these two developments to be positive initial steps in 
creating a positive environment for reconciliation and credible 
political dialogue, as well as addressing human rights concerns. I 
should emphasize that leadership is needed from all sides to make such 
a dialogue possible.

    Question. Will the government's recent actions have any 
implications on the United States-Bahraini relationship?

    Answer. As the President noted on May 19, mass arrests and brute 
force are at odds with the universal rights of Bahrain's citizens and 
will not end legitimate calls for reform. Senior Bahraini officials' 
recent public statements indicate that the Government is taking steps 
to create a positive environment to foster reconciliation and 
meaningful political dialogue. We welcome such statements and strongly 
support participatory processes that lead to concrete reforms that meet 
the aspirations and needs of all Bahraini citizens. Bahrain remains an 
important strategic ally of the United States though, as a longstanding 
friend and partner, we will continue to speak up if actions on the 
ground do not lead to reconciliation and credible dialogue.

                              AFGHANISTAN

    Question. How important is it to prevent al-Qaeda from 
reconstituting in Afghanistan, as opposed to doing so in Pakistan, in 
Yemen, or elsewhere?

    Answer. Our goal is to disrupt, dismantle, and defeat al-Qaeda 
everywhere. It is particularly important that we prevent al-Qaeda from 
reconstituting in Afghanistan, where it would not only be in a position 
once again to plan attacks against the U.S. homeland--as it did before 
9/11--but also to threaten Afghanistan's young democracy, our allies 
and partners, regional stability and our interests worldwide. The 
targeting of al-Qaeda in Afghanistan is one of our primary goals--the 
group's return would be a significant strategic victory for the group, 
emboldening it to plot globally and drawing new recruits to its cause.

    Question. Every war needs an end point, and this one is unlikely to 
come in the form of an enemy's unconditional surrender. Could the death 
of Osama bin Laden provide a legitimate pivot-point marking the end of 
major U.S. combat operations?

    Answer. The core goal of the U.S. strategy in Afghanistan remains 
to disrupt, dismantle, and defeat al-Qaeda and to prevent its return to 
Afghanistan. Osama bin Ladin's death deals a significant strategic blow 
to al-Qaeda. It sends an unmistakable message about the strength of the 
resolve of the United States and the international community to stand 
up against extremism and those who perpetuate it. It also provides a 
unique opportunity to make progress on ending the conflict in 
Afghanistan through the mutually reinforcing processes of transition, 
reconciliation, and reintegration.
    Our aim is to assist in achieving a responsible and irreversible 
transition to full Afghan responsibility by 2014. Pursuant to this 
goal, we are committed to begin a drawdown of our forces in Afghanistan 
in July, though the pace and scope has not yet been determined. 
Concurrently, our diplomatic surge aims to bring the Afghan conflict to 
an end and chart a new and more secure future for the region by 
supporting an Afghan-led political process to split the weakened 
Taliban off from al-Qaeda and reconcile those who will renounce 
violence and accept the Afghan Constitution with an increasingly stable 
Afghan Government, leaving al-Qaeda isolated and on the run. We will 
continue working toward achieving these important goals.

    Question. What should our core goal be for an end state in 
Afghanistan after 2014? What is our absolute barebones requirement in 
terms of American national security interests? What level of American 
troop presence would be required after 2014 to safeguard these national 
security interests, and for how long?

    Answer. The core goal of the U.S. strategy in Afghanistan remains 
to disrupt, dismantle, and defeat al-Qaeda and to prevent its return to 
Afghanistan. We are actively working to achieve the conditions in 
Afghanistan that would support this outcome. We are committed to 
achieving a responsible and irreversible security transition to full 
Afghan responsibility by 2014, beginning with an initial drawdown of 
our forces in July, at a scope and pace yet to be determined, and a 
shift in the civilian mission away from stabilization activities to an 
even greater focus on capacity-building and long-term, sustainable 
development. We are in discussions with the Government of Afghanistan 
to define our enduring commitment through and beyond the end of 
transition in 2014. Our aim is a normalized relationship with an 
increasingly stable and fully sovereign Afghanistan.
    Regarding the American troop presence, the Department of Defense is 
best placed to answer questions about specific troop strength and the 
duration necessary to maintain our national security interests in 
Afghanistan in 2014 and beyond. The Secretary noted in her February 18 
speech to the Asia Society: ``The United States will always maintain 
the capability to protect our people and our interests. But in no way 
should our enduring commitment be misunderstood as a desire by America 
or our allies to occupy Afghanistan against the will of its people. We 
respect Afghans' proud history of resistance to foreign occupation, and 
we do not seek any permanent American military bases in their country 
or a presence that would be a threat to any of Afghanistan's 
neighbors.''

                                PAKISTAN

    Question. Are the goals of the United States and Pakistan regarding 
Afghanistan reconcilable, or are they so divergent that serious tension 
is inevitable?

    Answer. Our relationship with Pakistan has never been an easy one, 
and it is no secret that we have not always seen eye to eye on all 
issues. Tensions in such a consequential relationship are inevitable. 
Nevertheless, Pakistan has been a key partner in our common struggle 
against al-Qaeda and, like us, is committed to its defeat.
    In Afghanistan, the United States and Pakistan share a commitment 
to working together to achieve peace and reconciliation. Pakistan 
shares our understanding that Afghanistan is the keystone to regional 
stability. As Secretary Bashir said on May 23, ``peace and stability in 
both countries is interdependent and there can be no peace in 
Afghanistan if there is turmoil and instability in its neighborhood and 
vice versa.'' In the trilateral process that Secretary Clinton launched 
in May 2009, and which has met twice this spring, we are jointly 
pursuing a vision of an Afghanistan that is secure, stable and 
economically prosperous. During his trip to Kabul in May, Foreign 
Secretary Bashir reiterated Pakistan's solidarity, support, and 
partnership with Afghanistan.
    In her speech to the Asia Society in February, Secretary Clinton 
laid out the U.S. strategy on reconciliation and identified Pakistan as 
a pivotal player in that effort. Pakistan has welcomed the opportunity 
to work with us on achieving a political settlement in Afghanistan and 
we are both committed to continuing our regular trilateral discussions 
with Afghanistan to enhance cooperation and to lay the groundwork for 
an effective reconciliation process.

    Question. If we want to send a message to the Pakistani military, 
do you think the decisionmakers in the security establishment would be 
most influenced by potential cuts to military aid, or development 
assistance?

    Answer. U.S. civilian and military assistance support the United 
States national security interests by strengthening Pakistan's 
stability and prosperity, and its capacity to combat extremism. Cutting 
or reducing aid at this time would significantly and negatively 
influence Pakistani capability and willingness to coordinate with us on 
key national security goals. Further, it would feed into the narrative 
that the United States is not committed to a long-term partnership with 
Pakistan--reducing our ability to achieve our national security goals 
and stabilize Pakistan.
    Developmental assistance improves Pakistan's capacity to address 
critical infrastructure deficits and basic civic needs, improves 
economic opportunity in areas most vulnerable to extremism, and 
strengthens Pakistan's capacity to implement economic and political 
reforms that reinforce stability. Enhancing the Government of 
Pakistan's capacity to provide key public services to its citizens 
weakens the insurgency's appeal.
    Likewise, instability in Pakistan caused by a failure of the 
security establishment in its campaign against violent extremists would 
be a great victory for terrorist organizations that are a serious 
threat to Pakistan, its neighbors, and U.S. interests.
    In the long term, U.S. assistance promotes a more tolerant, 
democratic, pluralistic Pakistan. In addition to the immediate 
counterterrorism benefits of our civilian and military assistance, it 
is in our long-term national security interest to continue to seek and 
strengthen Pakistan's currently weak civilian government while also 
equipping the security services to actively fight insurgents and 
terrorists that threaten the country's stability.

    Question. There has been much discussion of whether the actions of 
Pakistan might trigger conditions of Kerry-Lugar-Berman or other laws--
but the administration is always able to cut back on security aid as a 
matter of policy rather than law. Are there any specific actions we 
would have to see from the Government of Pakistan to avoid a cutback in 
security assistance?

    Answer. The Secretary has been clear and consistent about our 
expectations for this relationship. We look to the Government of 
Pakistan to take decisive steps against al-Qaeda and its affiliates 
that will make Pakistan, America, and the world safer and more secure. 
When Secretary Clinton was in Pakistan in late May she had direct, 
candid, and constructive conversations with Pakistan's civilian and 
military leadership about our interests in the region, and I believe 
they are aware of our hopes and expectations. Additionally, through the 
Enhanced Partnership With Pakistan Act of 2009, we impose baseline 
conditions that Pakistan must satisfy, through specific actions, to 
ensure continued security assistance. Our cooperation with Pakistan has 
led to significant progress in our common struggle against terrorism, 
and we hope this progress will continue.

                                SOMALIA

    Question. Somalia poses the greatest security threat on the African 
continent to American interests. That same situation makes it a very 
dangerous place, but other missions nonetheless have been able to 
maintain a diplomatic presence there. The safety of our personnel is of 
paramount importance, but these personnel are the very people who point 
out the high price we pay in terms of crafting and overseeing a Somalia 
policy by not having a diplomatic presence on the ground. What can be 
done to help establish such a presence in Somalia?

    Answer. The security environment in Mogadishu is tense as al-
Shabaab attacks continue against the Somalia Transitional Federal 
Government (TFG) and African Union Mission in Somalia (AMISOM). While 
AMISOM has recently expanded its area of operation and U.S. security 
sector reform efforts are underway in support of the TFG National 
Security Force (NSF), local conditions do not yet support a more 
permanent U.S. diplomatic presence. Reestablishing a U.S. diplomatic 
presence in Somalia depends on developments within Somalia and the 
continued improvement of political and security institutions. Of note, 
AMISOM is already providing security at the airport, sea port, Villa 
Somalia and other key sites in Mogadishu. The United Kingdom and France 
transit Mogadishu regularly, as do U.S. contract companies, though no 
Western nation has an embassy in Mogadishu at this time. U.N. and 
African Union (AU) staff transit there as well. As security permits we 
will seek to expand the ability of U.S. personnel to travel into 
Somalia, including Mogadishu, Bosssasso, and Galcayo, for brief visits.
    Pending a decision to establish a formal, permanent presence in 
Somalia, a security assessment would need to take place to find a 
viable location from which to operate. The U.S. Government does own a 
178-acre compound in Mogadishu--site of the U.S. Embassy that was 
completely destroyed in 1991--but we do not know who controls the 
compound or its condition. In addition, appropriate host nation 
security elements, or augmenting forces, would have to provide the 
necessary protection for any U.S. diplomatic facility. The operating 
environment would need to be permissive enough to carry out diplomatic 
operations in pursuit of U.S. policy goals. Last, adequate funding 
would also need to be provided to stand up and maintain any fixed 
diplomatic presence in Somalia.
    Even without a permanent presence, we continue our outreach efforts 
in Somalia under the Dual Track policy. On Track One, we continue to 
support the Djibouti Peace Process, the Transitional Federal Government 
(TFG), and the African Union Mission in Somalia (AMISOM) as our primary 
effort to stabilize Somalia and to repel al-Shabaab's advances in 
Mogadishu. We are continuing our political and security sector support 
to the TFG and AMISOM in close partnership with the U.N., AU, and other 
international stakeholders. On Track Two, we are deepening our 
engagement with the regional Governments of Somaliland and Puntland, as 
well as with local and regional administrations throughout South-
Central Somalia who are opposed to al-Shabaab, but who are not 
affiliated with the TFG.

                                 SUDAN

    Question. The new Republic of South Sudan will face enormous 
challenges. What do you see as the top priorities for state-building in 
the new South Sudan after July? How can the United States help promote 
an inclusive approach to government and a participatory and transparent 
approach to the creation of a constitution to safeguard the rights of 
all South Sudanese?

    Answer. The Southern Sudan Referendum was a historic milestone in 
the implementation of the Comprehensive Peace Agreement, and the 
Government of South Sudan (GOSS) has made progress in building the 
backbone of a functioning government since the signing of the CPA in 
2005, with the assistance of United States and other stakeholders. 
Moving forward, it is critical for the new Government of South Sudan, 
with ongoing support from international partners, to continue this 
long-term process and to institutionalize inclusion, transparency, and 
accountability, while improving the delivery of basic services. The 
government also needs to prioritize the adoption of long-term security 
and economic arrangements with the North, and deal with internal armed 
movements and militias. Support from the international community will 
be imperative for the newly independent state of South Sudan to emerge 
as a stable and prosperous member of the community of nations, and for 
a peaceful coexistence with the North.
    Managing the expectations of its people will be central to the 
government's efforts, as improvements in transparency, accountability, 
delivery of basic services and security will take time. This will 
require the South to refocus on investing in people, building a healthy 
political discourse, and setting spending priorities. We are 
encouraging the Government of Southern Sudan to demonstrate its 
commitment to democracy, good governance, and respect for human rights 
to its people and the international community by fostering inclusive, 
democratic institutions; encouraging the development of robust civil 
society; fully involving opposition groups in the political process; 
and rooting out corruption.

                            CHINA AND INDIA

    Question. China's and India's potential rise to great power status 
may be the defining story of the 21st century. With its growing 
economic clout, China needs to do more than abide by international 
norms, although that is important. We need Beijing to help contribute 
to strengthening the international system that has helped it prosper. 
China can play an enormously influential role in addressing regional 
challenges in the Korean Peninsula, Iran, Afghanistan, and in Sudan. 
Encouraging China to see that its own interests will be served by 
assuming greater responsibility in the international system will be one 
of your most important tasks--it's certainly one that has occupied a 
lot of time for your predecessor. Given how much China's leaders remain 
focused on addressing significant domestic challenges, how would you 
engage China to take on greater responsibility in securing peace, 
stability, and prosperity in the international system?

    Answer. While Beijing has made clear that domestic challenges such 
as continuing China's economic development are a top priority, 
Presidents and Obama agreed during Hu's January state visit that our 
two countries must continue to work together to solve common 
challenges. The United States engages China on a broad range of key 
global issues such as producing balanced global growth, stopping the 
spread of nuclear weapons, and combating climate change. Our two 
nations are also working together on a range of shared security 
challenges, including our efforts to prevent Iran from acquiring 
weapons of mass destruction, realize a denuclearized North Korea, 
counter violent extremism that threatens our stability and prosperity, 
and support the North-South peace process in Sudan while also 
addressing the human rights situation in Darfur. The United States 
appreciates the positive contributions China has made on these issues. 
The administration recognizes that much more needs to be done, however, 
and repeatedly raises this in meetings with senior PRC officials. 
During the recent Strategic & Economic Dialogue, Secretary Clinton had 
in-depth discussions of regional and global security issues with her 
counterpart, State Councilor Dai Bingguo. If confirmed as Deputy 
Secretary, I will continue to press Beijing for greater progress in 
these areas.

    Question. In recent years, a bipartisan consensus has emerged that 
India's rise is in America's interest. Our two countries are also in 
the early stages of building stronger habits of cooperation, and can 
ill-afford to take this relationship for granted. There is a risk that, 
amid a crowded foreign policy agenda full of daunting challenges, we do 
not pay adequate attention to building this partnership, allowing 
relations with India's neighbors to define our interactions with New 
Delhi. You spoke at great length about this very subject during the 
first United States-India Strategic Dialogue launched last summer in 
Washington. If confirmed, what steps will you take to realize the 
potential of this growing friendship?

    Answer. I couldn't agree more that India's rise is deeply in the 
strategic interest of the United States. We are fortunate to enjoy a 
bipartisan consensus on this issue. Over the last decade, three U.S. 
administrations and two Indian Governments led by different parties 
have transformed the relationship. Growing connections between our 
societies--over 100,000 Indian students study at American universities, 
bilateral trade quadrupled in the last decade, and 3 million Indian-
Americans are playing a vibrant role here at home--have provided 
further ballast to the relationship. We are the world's two largest 
democracies, both diverse, tolerant societies; two of the world's 
largest economies; both increasing our stake in global stability and 
prosperity, especially across Asia-Pacific. Relationships thus anchored 
are not easily blown off course.
    We are indeed faced with unprecedented foreign policy challenges 
and competing priorities, especially in South Asia, but over the last 
several years we have carved out for India a prominent place. India's 
neighbors are indeed important, but as I said last year, ``We refuse to 
accept the notion that somehow we can have strong relations with only 
one country in South Asia at a time . . . the only `hyphen' that we 
will pursue with respect to our relationship is the one that links the 
United States and India.''
    Developing the habits of cooperation required to make our 
partnership with India succeed will continue to take hard work and 
patience, which I believe the President, the Secretary, and I are fully 
committed to maintaining. The administration has made clear since the 
outset that the United States-India relationship was a cornerstone of 
our engagement in Asia and ``a defining partnership of the 21st 
century.'' The longest single foreign visit of President Obama's 
administration to date was a 3-day visit to India in November 2010, the 
first stop on a trip to four major Asian democratic partners. Secretary 
Clinton will build on President Obama's successful visit when she 
returns to New Delhi for the second annual Strategic Dialogue this 
summer. Our Strategic Dialogue is the centerpiece of our effort to 
elevate India to the ranks of our most important global partners. Its 
initial phase has achieved its goal of broadening engagement on 
bilateral, regional, and global challenges, and generated meaningful, 
sustained interaction with a wide array of officials, business figures, 
and civil society representatives. This year's Strategic Dialogue will 
consolidate these gains, showcase our accomplishments, and refocus on 
our strategic priorities.There remains still greater potential in this 
relationship. The administration attaches great importance to our 
strategic consultation with India on regional affairs, including the 
broader Indian Ocean and Pacific region. The Strategic Dialogue will 
present a key opportunity to underscore our support for India's 
potential as an engine of economic prosperity and integration in the 
South Asia region.
    I am also committed to advancing the United States-India trade and 
economic relationship, which is already moving ahead by leaps and 
bounds: India is now our 12th-largest trading partner, up from 25th in 
2000, and has the potential to become one of our top five trade and 
investment partners, with particular success in the area of high 
technology trade. Another objective will be to expand our consultations 
with India on security challenges, including maritime security, 
counterpiracy, and ensuring free access to other ``shared domains,'' 
including outer space and cyber space. We also hope to achieve even 
more on defense sales. India has purchased more than $8 billion of U.S. 
military equipment over the past decade and we are well positioned to 
help India achieve its goals as it spends more than $35 billion on 
defense over the next 5 years. The recent finalization of the $4.1 
billion tender for 10 C-17 aircraft illustrates how American technology 
companies are learning to navigate the Indian procurement system.

                       EUROPE, RUSSIA, AND TURKEY

    Question. Vladimir Putin has recently been signaling his interest 
in returning to the Russian Presidency. What would the implications of 
the removal of the ``tandem'' and Putin's return to sole power for 
U.S.-Russian ``Reset''? What are the natural next steps in the 
``Reset''?

    Answer. The question of who will lead Russia after the 2012 
Presidential elections is a matter for the Russians themselves to 
determine. We will continue to cooperate with Russia, regardless of who 
sits in the Kremlin, precisely because our policy toward Russia is 
based on our interests rather than our assessment of individual 
officials.
    In terms of the ``reset,'' President Obama has announced that our 
two headline goals for 2012 are resuming missile defense cooperation 
with Russia and finalizing Russia's accession to the WTO. At the recent 
G8 summit in Deauville, President Obama and President Medvedev 
committed to working together to find an approach to missile defense 
that is consistent with the security needs of both countries, maintains 
the strategic balance, and deals with the potential threats we both 
face. Cooperation on missile defense is a priority within the broad 
scope of our engagement to address mutual security challenges, 
bilaterally and through multilateral channels. Of course, even as we 
pursue cooperation with Russia, the Obama administration remains 
committed to deploying all four phases of the European Phased Adaptive 
Approach to missile defense in Europe to protect our European allies 
and deployed troops against the Iranian missile threat.
    On WTO, we believe that Russian membership will benefit U.S. 
economic interests directly not only by increasing market access for 
U.S. exports, but also by integrating Russia into a system of fixed 
rules governing trade behavior and providing the means to enforce those 
rules and Russia's market access commitments. The Peterson Institute, a 
nonpartisan think tank, estimates that U.S. exports to Russia could 
double as a result of that country's accession to the WTO. Lifting 
Jackson-Vanik and extending Permanent Normal Trade Relations (PNTR) to 
Russia is also a key component of this year's legislative trade agenda 
and necessary for the United States to benefit from the WTO disciplines 
and improved market access resulting from Russia's accession.

    Question. In the past 10 years Turkey has pursued a far more 
assertive foreign policy in the Middle East. How would you characterize 
Turkey's position in the region given the events of the past year: the 
impact of the Arab Spring and the further deterioration of its 
relations with Israel following the flotilla incident? Do all of these 
recent events strengthen Turkey's position or weaken it?

    Answer. Turkey is an increasingly influential partner at the 
intersection of several crucial regions. Its growing economy, active 
foreign policy agenda, and stable democratic system all contribute to 
its growing influence in the region.
    Turkey has used its influence to good effect during the Arab 
Spring. For example, Turkey has assumed a leading role in delivering 
humanitarian assistance to Libyans. Elsewhere in the region, Turkey has 
declared its commitment to abide by UNSCR 1929--a commitment we 
continue to urge them to implement vigorously--and Turkey shares our 
goal of preventing Iran from acquiring nuclear weapons.
    Turkey continues to work closely with us to promote regional 
stability, and Turkey remains an important and committed ally of the 
United States and member of NATO. As with any ally, we sometimes have 
different perspectives, yet the strength of our bilateral relationship 
allows us to address such differences forthrightly when they arise. We 
continue to encourage Turkey to improve relations with Israel, and have 
been candid with Turkey about our concerns over its contacts with 
Hamas, though we have welcomed Turkish support for a two-state 
solution. Turkey's tensions with Armenia and Cyprus also diminish its 
regional influence, and we have urged Turkey to improve relations with 
each of these countries.

    Question. Is there a window of opportunity to secure the 
unification of Cyprus in the coming months? What is an appropriate U.S. 
role in that process and will we have an Ambassador ready to take 
advantage of that window when the current U.S. Ambassador rotates out 
this summer?

    Answer. The United States strongly supports the Cypriot-owned, 
Cypriot-led negotiations under the auspices of the United Nations Good 
Offices Mission led by Alexander Downer to reunify the island as a 
bizonal, bicommunal federation. The talks have been ongoing for over 
2\1/2\ years, and while some progress has reportedly been made, the 
parties have yet to reach convergence on a number of salient issues, 
including property, territory, and security and guarantees. President 
Obama noted in his 2010 Cyprus National Day statement that ``the United 
States is confident that a resolution meeting the aspirations of both 
communities is attainable.'' We continue to hold this view.
    United Nations Secretary General Ban ki-Moon is scheduled to meet 
with the leaders on July 7 in Geneva. We are hopeful that the leaders 
of both communities will take advantage of this meeting and seize the 
opportunity in the coming months to intensify their efforts.
    The U.S. Government is not a participant in the negotiations, but 
we have offered to provide any help that both sides would find useful. 
As a friend to all the people of Cyprus, we will continue to urge the 
leaders of both communities to engage constructively in the 
negotiations and support the Cypriot-owned process as the best way to 
reach an agreement.
    It is our aim, with the consent of the Congress, to have a new 
Ambassador in place in a timely manner.

                      CYBERSPACE AND CYBERSECURITY

    Question. The President just released an ``International Strategy 
for Cyberspace,'' which, among other things, asserts that the United 
States will ``respond to hostile acts in cyberspace as we would to any 
other threat to our country,'' including reserving the right to use all 
necessary means to defend the country. This represents one of the 
administration's boldest assertions of the use of force when it comes 
to cyber issues. Given problems of attribution (determining which 
country is responsible for initiating cyber attacks) and definitional 
ambiguity (i.e., does a denial of service attack that knocks out phone 
service for 8 hours in Detroit constitute a material attack on the 
United States?), is such a statement premature?

    Answer. The International Strategy makes clear that there is a 
possibility of ``hostile acts'' in cyber space, and the United States 
will respond to such hostile acts as it would to any other threat, 
using appropriate standards of evidence of sponsorship. The 
International Strategy does qualify that we will exhaust all options 
before military force whenever we can and that we will act in a way 
that reflects our core values and is in accord with international law. 
Based on threats and capabilities seen today from adversaries' actions 
in cyberspace, such a statement is not premature and hopefully will 
contribute to the development of a framework of deterrence in the cyber 
arena.

    Question. Is there a formal decisionmaking process in place to 
determine a potential military response to a cyber attack? Which 
agencies would be responsible for determining a U.S. response to such 
an attack?

    Answer. We foresee no difference in the decisionmaking process for 
responses to a hostile act in cyberspace than in response to hostile 
acts occurring through other means. Any military operation requires 
careful review for consistency with policy, laws, and regulations (such 
as the Law of Armed Conflict). Foreign policy considerations always 
play a prominent role in such deliberations.

                         U.N./MULTILATERAL/G20

    Question. The United States has seen significant success in the 
Human Rights Council, since joining in 2009. Unfortunately, most 
lawmakers and most Americans are unaware of the successes. How do you 
characterize the importance of the USG work on the Council, and the 
importance the Council's work plays in changing the behavior of states, 
and promoting and protecting fundamental freedoms in individual 
countries? Should the State Department do more to publicize these 
successes?

    Answer. The recent successes in the Human Rights Council--
especially victories on freedom of religion/expression (by ending the 
``defamation of religions'' resolution), LGBT rights and the human 
rights situations in Libya, Iran, and Syria--have been extremely 
important, both in terms of USG efforts to improve the Human Rights 
Council as an institution and in terms of USG overall goals for the 
promotion and protection of human rights around the world.
    These recent successes are a direct result of U.S. engagement at 
the Human Rights Council. Until the United States joined the Human 
Rights Council in 2009, it was unable to effectively focus on human 
rights situations in any specific country other than Israel. Now other 
countries such as Iran, Syria, Libya, Kyrgyzstan, Sudan, and Tunisia 
account for more than half of the country-specific situations addressed 
by the Council. Until this year, the ``defamation of religions'' 
resolution--a resolution that legitimized blasphemy laws and other 
restrictions on free speech--was the Council's primary response to 
questions of religious intolerance. U.S leadership brought an end to 
this resolution and made sure it was replaced with a consensus 
resolution that supports dialogue and education.
    The Human Rights Council is still far from perfect. In addition to 
the biased, disproportionate focus on Israel, it still has a membership 
that consists of several countries that work to shield themselves and 
each other from scrutiny of their human rights record. Our focus is on 
session-by-session improvements, which so far has yielded impressive 
results, but more work needs to be done.
    However, the real benefit of U.S. engagement with the Human Rights 
Council is the effect it has on the promotion and protection of human 
rights around the world. On this point, the protests of censured 
governments and the praise from human rights defenders for U.S. 
successes on the Human Rights Council provide overwhelming proof that 
the victories in the Council actually matter and have real effect. 
Human rights defenders from all over the world tell us it really makes 
a difference to them when the Human Rights Council takes action.
    With respect to publicity, U.S. successes in the Human Rights 
Council have received more attention from the media in recent months, 
especially after the special sessions on Libya and Syria and the March 
regular session. The successful efforts at the regular Council session 
in March to establish a Special Rapporteur for Iran, to end the 
``defamation of religions'' resolution and to deliver a cross-regional 
statement in support of LGBT rights received significant and widespread 
press coverage, including in the New York Times, the Economist, and the 
major wire services. The Economist's article was particularly 
complimentary, saying that the defeat of the defamation resolution 
``vindicated'' the administration's view that both the Human Rights 
Council and the Organisation of the Islamic Conference ``can respond 
well to constructive engagement.'' After the special session on Syria, 
National Public Radio ran two pieces--one on ``All Things Considered'' 
and another on ``Weekend Edition Saturday''--that not only recounted 
the successful special session, but also highlighted U.S. efforts over 
a 2-year period to improve the Human Rights Council as an institution.
    However, the level of press attention to U.S. efforts in the Human 
Rights Council is not yet commensurate with the significance of recent 
successes, and the Department will continue to explore ways to 
publicize these important victories for both human right and U.S. 
foreign policy.

                         TRAFFICKING IN PERSONS

    Question. Trafficking in humans is one of the most horrific crimes 
and abuses on our planet. We are about to see the release of the 2011 
Trafficking in Persons report. That annual report has been credited 
both with vastly improving the behavior of governments, and with 
creating a negative perception of the issue in many countries. How do 
you perceive the TIP report as a tool?

    Answer. The annual Trafficking in Persons (TIP) Report is a 
comprehensive assessment of governments' efforts, including those in 
the United States, during the reporting year to prosecute traffickers, 
protect trafficking victims, and prevent trafficking. It serves as a 
unique diplomatic tool to initiate bilateral and multilateral 
discussions and collaboration, to assess patterns and trends in human 
trafficking in order to confront it more effectively at home and 
abroad, and to identify specific priority areas and countries for anti-
TIP foreign assistance. Over the last 10 years, we have seen a great 
deal of progress, including the passage of new antitrafficking laws in 
more than 120 countries, improvements in victim identification and 
services, and increasing numbers of prosecutions. Countries are 
increasingly taking significant strides against trafficking, not as a 
favor to us, but because they recognize it is in their own self-
interest to deal with this problem. The TIP Report will continue to 
serve as our primary tool to assess human trafficking and to promote 
sustained efforts by governments to combat trafficking.

    Question. Moreover, it is well known that the process within the 
Department is combative and adversarial. How can regional bureaus be 
incentivized to feel greater ownership over the issue?

    Answer. Under Secretary Clinton's leadership, the Department of 
State has made this issue a foreign policy priority and incorporated it 
into our bilateral and multilateral engagement. As the Secretary has 
stated, we are ``raising this issue at the highest diplomatic levels 
abroad.'' This includes the efforts of regional and functional bureaus, 
as well as our officials in embassies abroad. Through several region-
specific TIP reporting officer conferences we have brought together 
Washington and embassy officials working on TIP to review emerging 
trends, as well as reporting requirements and evaluative criteria for 
the TIP Report. These conferences enable reporting officers to share 
best practices on engaging foreign governments and encouraging real 
progress on the country-specific issues identified in the TIP Report, 
and contributed to greater collaboration in compiling the annual 
report.
                                 ______
                                 

        Responses of William J. Burns to Questions Submitted by
                         Senator Barbara Boxer

    Question. Mr. Burns, as you know, the State Department is currently 
considering a Presidential Permit for the Keystone XL pipeline. Some 
concerns have been raised about the impacts of the pipeline and the 
adequacy of the State Department's analysis of its impacts under the 
National Environmental Policy Act (or NEPA).
    One concern is the safety of the pipeline and whether the potential 
for pipeline spills has been fully evaluated. According to recent news 
reports, the existing Keystone pipeline, which commenced operation in 
June of last year, has already experienced spills, which pose 
environmental and public safety threats. Will you commit to ensure that 
the safety of the pipeline is fully evaluated and addressed, in 
consultation with appropriate Federal agencies that oversee pipeline 
safety and oil spill response?

    Answer. The State Department is committed to evaluating all safety 
concerns related to the proposed pipeline and ensuring those concerns 
are addressed. The Department has been in consultation with cooperating 
federal agencies throughout its review of the Presidential Permit 
application for the Keystone XL pipeline. To address pipeline safety 
concerns, the Department has consulted extensively with the Pipeline 
and Hazardous Materials Safety Administration (PHMSA) and reviewed the 
measures put forward by the applicant to ensure the pipeline's safety. 
Further, TransCanada has agreed to 57 additional conditions regarding 
the construction, operation, and maintenance of the pipeline developed 
in close consultation with PHMSA, as is detailed in Appendix C of the 
Supplemental Draft Environmental Impact Statement.
    On April 15, 2011, the Department made available for public comment 
a SDEIS on the Keystone XL pipeline Web site, ``www.keystonepipeline-
xl.state.gov,'' and subsequently issued a Federal Register notice of 
this public comment period, which expires on June 6, 2011. 76 Fed. Reg. 
22744 (April 22, 2011). Section 3.13 of the SDEIS provides a review of 
pipeline safety considerations, standards, and regulations, and reviews 
potential types of releases and spills for the proposed pipeline. This 
section of the SDEIS provides further information regarding recent 
spills and incidents associated with TransCanada and Keystone as well 
as a review of U.S. pipeline spill incident history.

    Question. Mr. Burns, in granting a Presidential Permit for a 
pipeline, the State Department must determine whether the project is in 
the national interest. Questions have been raised about whether the 
pipeline will increase air pollution and whether the pipeline will help 
to advance the administration's clean energy goals. Given these 
concerns, what factors will your agency be weighing when determining if 
this project is in the national interest?

    Answer. Factors that have been considered in previous national 
interest determinations on major crude oil pipelines include:

  <bullet> Environmental impacts of the proposed projects;
  <bullet> Impacts of the proposed projects on the diversity of supply 
        to meet U.S. crude oil demand and energy needs;
  <bullet> The security of transport pathways for crude oil supplies to 
        the United States through import facilities constructed at the 
        border relative to other modes of transport;
  <bullet> Stability of trading partners from whom the United States 
        obtains crude oil;
  <bullet> Impact of a cross-border facility on the relations with the 
        country to which it connects;
  <bullet> Relationship between the United States and various foreign 
        suppliers of crude oil and the ability of the United States to 
        work with those countries to meet overall environmental and 
        energy security goals;
  <bullet> Impact of proposed projects on broader foreign policy 
        objectives, including a comprehensive strategy to address 
        climate change;
  <bullet> Economic benefits to the United States of constructing and 
        operating proposed projects; and
  <bullet> Relationships between proposed projects and goals to reduce 
        reliance on fossil fuels and to increase use of alternative and 
        renewable energy sources.

    See Supplemental Draft EIS, Section 1.3, pp. 1-6. This list is not 
exhaustive, and the State Department may consider additional factors in 
the process of determining the ``national interest.''
                                 ______
                                 

        Responses of William J. Burns to Questions Submitted by
                         Senator James E. Risch

    Question. While I am glad the administration applied the 
Comprehensive Iran Sanction, Accountability, and Divestment Act 
sanctions law and sanctioned several foreign companies, it appears we 
continue to sanction companies in countries where the United States 
does not have close ties, such as Venezuela and Belarus. Chinese firms 
continue to conduct business in the Iranian energy sector while other 
international companies withdraw and President Obama's Special Advisor 
for Nonproliferation and Arms Control Robert Einhorn admitted as much 
in March, saying ``clearly [Chinese firms] have some investments in 
Iran.''

  <bullet> Would you agree with Mr. Einhorn that Chinese companies have 
        made investments in Iran's energy sector?
  <bullet> Has the State Department opened investigations into Chinese 
        companies for violating the Iran Sanctions act? Please identify 
        which ones.

    Answer. We watch developments in Iran's energy sector extremely 
closely, including possible Chinese investment. We intend to continue 
to implement and aggressively enforce our sanctions laws in pursuit of 
our shared goal of keeping Iran from developing nuclear weapons.
    We have seen reports that Chinese companies have made investments 
in Iran's energy sectors, although we have not seen credible evidence 
that any Chinese companies have finalized new upstream investments or 
refinery construction projects since the July 1, 2010, passage of the 
Comprehensive Iran Sanctions Accountability and Divestment Act 
(CISADA).
    As you may know, Secretary Clinton made a decision related to some 
foreign companies and the rationale for that decision was communicated 
to Congress via a classified report. We would be happy to brief you on 
the details in a classified setting.

    Question. I understand several companies received waivers from the 
Comprehensive Iran Sanctions, Accountability and Divestment Act 
sanctions under existing authorities. When the waiver authority 
expires, will State sanction the companies that are currently receiving 
waivers?

    Answer. To date, the Secretary has not waived sanctions on any 
entity. We would be happy to discuss the Secretary's use of other 
authorities under ISA in a classified setting.

    Question. Is it true that of the 16 companies sanctioned under the 
recently announced Iran, North Korea, and Syria Nonproliferation Act 
(INKSNA) sanctions, 13 of the companies targeted had already been 
sanctioned by the United States?

    Answer. The United States had previously sanctioned 12 of the 
foreign persons that were just sanctioned under the recent INKSNA. The 
United States sanctioned the following foreign persons for the first 
time under the recently announced INKSNA sanctions: Belarusian Optical 
Mechanical Association (Belarus), Dalian Zhongbang Chemical Industries 
Company (China), SAD Import-Export Company (Iran), and Xian Junyun 
Electronic (China).

    Question. When will the State Department send the 2008, 2009, and 
2010 Iran, North Korea, and Syria Nonproliferation Act (INKSNA) Reports 
to the Hill?

    Answer. The Department submitted the 2008 INKSNA report to the Hill 
on May 23, 2011. The Department will send the 2009 and 2010 reports to 
the Hill once it completes assembling and evaluating the information 
required by the act. Currently, the Department is clearing and 
coordinating the candidate 2009 INKSNA cases with the Intelligence 
Community and we are working to identify cases that meet the criteria 
for reportabililty for the 2010 INKSNA. We would be happy to brief you 
in greater detail.

    Question. When will the State Department send the latest Arms 
Control Compliance Report to the Hill as required by 22 U.S.C. 2593?

    Answer. This administration is committed to ensuring that Congress 
receives a rigorous and comprehensive report. This year's report, 
primarily reflecting activities in 2009 and 2010, is undergoing final 
State Department and interagency review and should be submitted to 
Congress soon.
                                 ______
                                 

        Responses of William J. Burns to Questions Submitted by
                        Senator Robert Menendez

                              FATAH-HAMAS

    Question. What is your view on whether the United States should 
work with a Palestinian Authority government that includes an 
unreformed Hamas? Do you support, pursuant to U.S. law, suspending aid 
to the Palestinian Authority, if after reviewing the situation it is 
determined that Hamas will not comply with Quartet conditions?

    Answer. We understand there is real concern in Congress about the 
implications of the Fatah-Hamas reconciliation agreement signed on May 
4. The administration has similar concerns. We will ensure full 
compliance with U.S. law.
    Many substantive, and vital, details of the agreement remain 
undetermined or subject to further negotiation, and we are in constant 
dialogue with the Palestinians about how the deal will be implemented. 
We are not opposed to reconciliation per se, but to Hamas involvement 
in a Palestinian Authority government if it does not accept Israel's 
right to exist, renounce violence and terror, and agree to abide by 
previous commitments.
    Until a new Palestinian government is formed and we have an 
opportunity to assess it based on its policies and positions, it is 
important for us to continue to support the very worthwhile efforts of 
the current Palestinian Authority government, under the leadership of 
President Abbas and Prime Minister Fayyad, to build the institutions 
for an eventual Palestinian state--an area of enormous progress over 
the last several years.

    Question. Where do you see the peace process heading in light of 
President Abbas' decision to reconcile with an unchanged Hamas?

    Answer. As the President said on May 19, the drive for a lasting 
peace that ends the conflict and resolves all claims is more urgent 
than ever. The status quo between Israelis and Palestinians is not 
sustainable. Neither Israel's future as a democratic Jewish state, nor 
the legitimate aspirations of Palestinians to govern themselves in a 
sovereign state can be secured without a two-state solution that is 
achieved through serious and credible negotiations that address issues 
of concerns to both sides.
    The reconciliation agreement between Hamas and Fatah poses a vital 
question for the Palestinians, one to which Palestinian leaders will 
have to provide a credible answer. None of us can expect Israel to sit 
down at the negotiating table with a party that is sworn to its 
destruction.
    Ultimately, the lack of a resolution to this conflict harms Israel, 
harms the Palestinians, and harms the interests of the U.S. and the 
international community. That is why, even though we know how hard it 
will be to get beyond the current impasse, we will continue to press 
ahead with the parties to resolve the core issues in the context of a 
peace agreement.

    Question. Please comment on Egypt's role in bringing about the 
agreement and whether their involvement foreshadows a change in their 
longstanding relationship with Israel?

    Answer. The United States supports reconciliation efforts that 
enhance the prospect for peace. The Egyptian Government has reaffirmed 
many times since the beginning of the revolution its commitment to all 
international treaties and obligations, including the Treaty of Peace 
with Israel, which is the basis of Egypt's longstanding relationship 
with Israel. We have made clear to the Egypt Government the importance 
of this treaty to peace and stability in the region. We do not believe 
that Egypt's role in facilitating the Hamas-Fatah reconciliation 
agreement foreshadows a change in that country's relationship with 
Israel.

                           DIVERSITY AT STATE

    Question. For many years I have urged, advocated, and legislated on 
behalf of enhancing Hispanic diversity at the Department within the 
civil service and Foreign Service. Despite my efforts and the 
commitment of successive Secretaries of State, today, Hispanics make up 
just 5 percent of all State Department employees and just 3.9 percent 
of Foreign Service officers. The average amongst Federal agencies is 8 
percent. State's numbers are disappointing.
    What is even more disappointing--and which seem to demonstrate the 
Department's continued indifference to this issue--is that the State 
Department failed to even provide data for 2009 to OPM for its annual 
report to the President on Hispanic Employment in the Federal 
Government. It was the ONLY Federal agency to not respond.

  <bullet> What specifically are you doing to improve diversity at the 
        Department in the Foreign and Civil Service? Are you attempting 
        to limit ``in status'' postings for civil service jobs that 
        inhibit diversification? Do you have a diversification goal and 
        a plan at how to arrive at that goal by a specified date? Are 
        you working to increase the number of Hispanic Presidential 
        Management Fellows or Hispanic students participating in 
        cooperative education programs? Will the Department comply with 
        OPM's request for 2010 data for their annual report to the 
        President on diversity?

    Answer. The Department of State's continuing recruitment goal is to 
identify, inspire, and employ qualified Americans with diverse 
backgrounds and experiences to effectively carry out our foreign 
policy. We aim to have a workforce that represents, at a minimum, the 
diversity found in the Bureau of Labor Statistics Professional 
Workforce demographic.
    Hispanics make up 5 percent of State Department Civil Service 
employees, 3.9 percent of Foreign Service officers, and 6.1 percent of 
Foreign Service Specialists. The number of self-identified Hispanics 
who took the Foreign Service Officer Test during FY10 was 2,219, up 
from 1,465 in FY09 or 10 percent of the total (approximately a 50 
percent increase). In 2010 the Department hired 36 Hispanic Foreign 
Service Specialists, or 7.4 percent of all new Specialist hires, and 32 
out of 826 Foreign Service Generalists, or 3.9 percent.

Department of State's large-scale recruitment efforts
    We recognize there is still much work to be done to ensure the 
Department reflects the rich diversity of our Nation. Several of our 
efforts are often cited as ``best practices'' and are successful in 
attracting outstanding diverse talent to pursue Department careers. We 
use a combination of ``high tech'' and ``high-touch'' tactics to 
identify and encourage the diverse talent we seek.
    Sixteen senior Foreign Service officers, also known as Diplomats in 
Residence, are based at targeted campuses around the United States. 
Each Diplomat in Residence has regional responsibilities, collectively 
visiting hundreds of colleges and universities and meeting with 
professionals seeking to change careers. On campus, Diplomats in 
Residence work in partnership with career counselors, diversity 
coordinators, and directly with students to identify talented career 
candidates from a range of backgrounds and experiences. The Diplomats 
in Residence work in partnership with Washington, DC-based recruiters 
to identify and contact potential candidates for all Department careers 
through Web-based resources and strategic partnerships with like-minded 
educational and professional organizations serving diverse populations, 
including Hispanics.
    In FY 2010, the Department spent $40,000 on advertising in Hispanic 
print and electronic media. Marketing studies demonstrate that minority 
professionals use social media at higher rates than nonminority 
professionals. Our public outreach is integrated with a comprehensive 
marketing and recruiting program that includes leveraging new media and 
networking technologies (Facebook, Linked-In, Twitter, YouTube), direct 
sourcing, e-mail marketing, and online and limited print advertising 
with career and niche-specific sites and publications (Hispanic 
Business, NSHMBA, LatPro, Saludos, LATINAStyle). In addition, the 
Department spent over $250,000 on general diversity media and 
Department-specific diversity networking events.
    The Department's Recruitment Outreach Office developed and hosted 
Diversity Career Networking Events as a tool to target a diverse range 
of professionals for Department of State careers, specifically 
highlighting deficit Foreign Service career tracks. In FY 2010, events 
were hosted in Los Angeles; Denver; Santa Fe, Albuquerque, and Las 
Cruces, NM; Miami; New York and Washington, DC, reaching over 1,000 
candidates including African-Americans, Asian-Americans, Hispanics, 
Native Americans, and women.
    In addition, over 900 Department employees have volunteered to 
support our strategic outreach, highlighting the diversity of our 
existing workforce and leveraging existing networks of internal 
affinity groups like the Hispanic Employment Council in Foreign Affairs 
Agencies (HECFAA).

``In status'' postings for Civil Service jobs
    All Department of State vacancy announcements are advertised 
according to merit procedures. Under those procedures managers have the 
option of determining the area of consideration. This area of 
consideration ``Status Only'' versus ``Open to Public'' is determined 
by how widely the manager feels he/she needs to recruit in order to 
obtain a reasonable pool of well-qualified candidates. Approximately 
half of our vacancy announcements are advertised ``Open to the Public'' 
which provides many opportunities for applicants outside of the Federal 
workforce to apply for positions at the Department of State. The 
Department continues to urge managers to be as inclusive as possible 
and to properly consider all candidates when making selections for 
positions.

Cooperative education programs
    The Department strives to achieve diversity throughout its 
workforce through various career-entry programs, including the 
Presidential Management Fellowship program. All qualified applicants 
referred to the Department by the Office of Personnel Management are 
given full consideration. The Office of Recruitment conducts regular 
outreach to institutions that serve Hispanics in order to increase the 
pool of applicants from the Hispanic community and promote awareness of 
entry-level employment opportunities.
    Our outreach to college students plants the seeds of interest in 
global public service and promotes a long-term interest in our 
internships, fellowships, and careers. In FY 2009 the Department funded 
an additional 100 paid internships for recruitment purposes. In 2009 
and 2010, with the support of the Director General, our Diplomats in 
Residence identified outstanding, diverse candidates for those 
internships, providing them the chance to experience work in 
Washington, DC, and embassies and consulates around the world.
    Twenty-three percent of these 100 paid interns were Hispanic. 
Through this program one Hispanic employee, a first generation 
American, had the opportunity to experience diplomacy in action working 
in our Embassy in Guatemala last summer. Another Hispanic employee, a 
Gates Millennium Scholar and recipient of a paid internship, had the 
opportunity to represent the United States at our mission to the 
Organization of American States. Both of these outstanding students are 
still working at the Department in student positions even after their 
internships ended.
    Two particularly successful student programs are the Thomas R. 
Pickering Foreign Affairs Undergraduate and Graduate Fellowships and 
the Charles B. Rangel International Affairs Fellowship. These ROTC-like 
programs provide financing for graduate school and paid professional 
experience in Washington and at our embassies to highly qualified 
students, in exchange for their commitment to the Foreign Service. 
Diplomats in Residence help recruit candidates for these fellowships, 
which have been essential to increasing the presence of 
underrepresented groups in the Foreign Service. In FY 2010, 17 out of 
120 (14.17 percent) Pickering Fellows and 7 out of 40 (17.5 percent) 
Rangel Fellows were Hispanic.

Compliance with OPM's request for 2010 data for Annual Report to the 
        President on Diversity
    The Department of State has been working closely with the Office of 
Personnel Management (OPM) to ensure that it is compliant with the 
diversity data reporting requirements. In 2009, we experienced 
complications with our submission (Attachment A). This was partially 
due to a change of formatting requirements, and partially due to the 
complexity of reporting data about our different workforces, the Civil 
Service and the Foreign Service.
    Unfortunately, by the time these issues were resolved, the 
publication deadline had passed. These issues have since been addressed 
with OPM and the Department has submitted its information for the 2010 
diversity report (Attachment B).

[Editor's note.--The above mentioned attachments were too voluminous to 
include in the printed hearing but will be retained in the permanent 
record of the committee.]

                                PAKISTAN

    Question. Our relationship with Pakistan has reached a strategic 
turning point. U.S. security-related assistance to Pakistan has 
increased by 140 percent since 2007 to $2.7 billion in FY 2010. In 
terms of total assistance we are in for more than $4 billion annually 
and they seem to dislike us more than ever. At a time when we are 
contemplating cutbacks to foreign assistance programs and scrutinizing 
every domestic program to ensure maximum effectiveness, it is 
incongruous to be providing enormous sums to the Pakistani military 
unless we are certain that it is meeting its commitment to locate, 
disrupt, and dismantle terrorist threats inside its borders.

  <bullet> Do you believe the Pakistani military is committed to 
        ceasing support to extremist and terrorist groups and 
        preventing al-Qaeda, the Taliban, and associated terrorist 
        groups from operating on the territory of Pakistan?
  <bullet> Will you be undertaking a review of security assistance for 
        Pakistan in light of recent events and under what condition 
        would you consider withholding assistance?
  <bullet> Are you concerned that the tremendous growth in U.S. 
        Security assistance to Pakistan could further destabilize 
        relations between Pakistan and India? How certain are you that 
        reimbursement funds provided to Pakistan under CSF are not 
        being used to bolster Pakistan's aggression toward India?

    Answer. Our relationship with Pakistan has never been an easy one. 
It is no secret that we do not always see eye to eye, including about 
how to most effectively counter shared threats to our security. 
Nevertheless, Pakistan has been a key partner in our common struggle 
against terrorism and is committed to fighting terrorist groups, 
including al-Qaeda and the Pakistani Taliban. As President Obama has 
said, ``the fact of the matter is that we have killed more terrorists 
on Pakistani soil than just about any place else. We could not have 
done that without Pakistani cooperation.''
    The key question now is whether Pakistan is prepared to do more. We 
know that al-Qaeda and its affiliates have been a source of great pain 
and suffering to Pakistan's leadership, people, and security forces. We 
are also confident that joint action by Pakistan and the United States 
against al-Qaeda and its affiliates will make Pakistan, America, and 
the world safer and more secure. We have made clear that we look to the 
Government of Pakistan to urgently take decisive steps against
al-Qaeda and its affiliates.
    The Department is continually reviewing its security assistance 
programs to ensure that disbursements are meeting our foreign policy 
goals and objectives, and benefiting the U.S. taxpayer. This is 
certainly the case with respect to our assistance to Pakistan.
    The Department remains committed to ensuring that U.S. security 
assistance and military sales do not significantly alter the prevailing 
military balance in any region. We carefully review all military sales 
to ensure they do not contribute to instability in South Asia. The 
careful consideration is also given to the review of all requests for 
reimbursement through Coalition Support Funds, to ensure that 
reimbursements are made only for expenditures that support Operation 
Enduring Freedom.
                                 ______
                                 

        Responses of William J. Burns to Questions Submitted by
                          Senator Marco Rubio

    Question. The administration has taken steps that indicate growing 
support for the Transitional Council, and Ambassador Cretz has said 
that they are ``worthy of our support.'' Yet, the administration 
refuses to recognize the Council as the legitimate Government of Libya.

  <bullet> How is U.S. nonrecognition of the Council impacting our 
        choices and freedom of action to promptly end the conflict in 
        Libya?
  <bullet> Would recognition of the Council facilitate the issue of 
        providing assisting to the Council by transferring ownership of 
        and confiscating the frozen Libyan assets?

    Answer. While we have not officially recognized the TNC, we have 
taken significant steps to bolster its legitimacy, including high-level 
meetings, inviting it to open an office in Washington, appointing an 
envoy to Benghazi and providing it with up to $25 million in nonlethal 
military assistance. The President is also discussing legislation with 
Congress that would permit the use of a portion of frozen regime assets 
for humanitarian and civilian purposes. As proposed, authority would be 
given to vest frozen assets within U.S. jurisdiction, consisting of 
directly owned property of the Government of Libya and its related 
entities, including the Central Bank of Libya. In addition, we have 
also taken steps to strip legitimacy from Qadhafi's diplomatic 
presence, including suspending Libyan Embassy operations in Washington 
(and U.S. Embassy operations in Tripoli); and urging countries 
worldwide to do likewise.
    The issue of recognition remains under review and we are continuing 
to assess the capabilities of the TNC as we deepen our engagement with 
the opposition. As part of that effort, our Envoy to Benghazi continues 
to meet with members of the TNC, as well as a broad spectrum of civil 
society groups and Libyans involved in the opposition. The TNC has 
consistently rejected terrorism and extremist influences and declared 
their respect for the human rights of all Libyans and we believe that 
it is a legitimate and credible interlocutor for the Libyan people. We 
continue to highlight the TNC's role as a legitimate and credible 
interlocutor for the Libyan people in international fora like the Libya 
Contact Group, the U.N., and elsewhere.

    Question. The Gadhafi regime relies heavily on foreign mercenaries 
to perpetuate its regime in Libya. Recent reports indicate that these 
mercenaries include members of POLISARIO Front--a separatist group that 
claims certain Moroccan territory and whose members live in camps 
within Algerian territory.

  <bullet> What is Algeria's role in the rebellion against the Gadhafi 
        regime?
  <bullet> Is the United States aware of POLISARIO presence in the 
        Libyan conflict?
  <bullet> What specific measures is the administration taking to keep 
        Libya's neighbors from providing support to Gadhafi?

    Answer. We are working closely with the Government of Algeria to 
ensure that UNSCR 1973, which Algeria has committed to supporting 
through the Arab League, is fully implemented. Algeria shares our 
desire to see an end to the bloodshed and violence in Libya and has 
long been a strong bilateral partner and a regional leader in 
counterterrorism efforts.
    The United States cannot corroborate any reports of a presence of 
the POLISARIO Front in the conflict in Libya.
    Working together with our partners in the Libya Contact Group, the 
United States is taking political, economic, and diplomatic measures to 
isolate the Qadhafi regime. Since the conflict began in February, we 
have been in regular contact with other countries in the region, 
emphasizing the importance of implementing strong sanctions against the 
regime, including enforcement of the arms embargo, asset freeze, and 
travel bans under UNSCRs 1970 and 1973. We have also demarched 
countries worldwide, encouraging them to suspend diplomatic ties with 
the regime and to refuse to receive Qadhafi's envoys, unless those 
envoys were willing to discuss the departure of Qadhafi from power. We 
are continuing to work with the Contact Group, African Union, and Arab 
League to increase the pressure on the regime and set the stage for an 
inclusive political transition in line with the legitimate aspirations 
of the Libyan people.

    Question. Since 2003, Congress has provided more than $30 billion 
in U.S. assistance to Pakistan, nearly $20 billion in economic aid. 
This has been explained as an effort to build up an enduring relation 
with Pakistan and to improve their civilian capacity.

  <bullet> Through what process or metrics is the administration 
        ensuring that development projects funded through the Pakistan 
        Partnership Act enjoy meaningful input from the recipient 
        communities?
  <bullet> What metrics is the administration applying to assess the 
        success or failure of its development policies in Pakistan?

    Answer. The USG has provided approximately $6.4 billion in civilian 
assistance to Pakistan since FY 2002. In executing that assistance, we 
work closely with Pakistan to strengthen the civilian government's 
ability to foster growth and meet the needs of its own people over the 
long term.
    A little over half of the FY 2010 planned civilian assistance will 
be implemented through Pakistani organizations, including federal or 
provincial government agencies and nongovernment organizations. We have 
established consultative processes on implementation, design, and 
accountability mechanisms. We consult with a range of local 
stakeholders to ensure their buy-in and input.
    As an illustration of how metrics are used in implementation, USAID 
has a performance management plan that lays out both short-term and 
long-term goals for each sector in which they manage assistance, and 
track progress against those goals. For example, in the energy sector a 
high-level goal is ``increased domestic energy supply'' with a lower 
level goal of ``improved efficiency of current power generation and 
distribution,'' measured by ``the megawatts of energy added as a result 
of USG-supported efforts.''
    USAID is also putting in place a stand-alone project that will 
provide third-party monitoring evaluation across the entire USAID 
portfolio.

    Question. Pakistan's security agencies have been under scrutiny for 
its alleged links with and even material support for Islamist militants 
operating both inside and out of Pakistan. U.S. Government suspicions 
have peaked with the circumstances surrounding bin-Laden's death.

  <bullet> What is the most effective way for the United States to 
        convince Pakistan's security institutions to embrace more 
        proactive counterterrorism cooperation?
  <bullet> Would a strong U.S. commitment to success in Afghanistan 
        help on that matter?

    Answer. The United States and Pakistan have worked together on many 
counterterrorism programs and activities in recent years that have 
increased pressure on al-Qaeda and the Taliban. This cooperation has 
been due, in large part, to Pakistan's vital interest in protecting its 
own territory and people, who have been ravaged by terrorism. Pakistan 
remains a key ally in our common struggle against terrorism and 
continues to battle terrorist groups . However, both we and the 
Government of Pakistan recognize that much more needs to be done 
immediately.
    Recent terrorist attacks in Pakistan against both security forces 
and civilians remind us once again of the sacrifices Pakistan has made 
in its fight against insurgents who seek to destabilize the country, 
and of the necessity of proactive, resolute action against all violent 
extremists. Joint action against al-Qaeda and its affiliates will make 
Pakistan, its neighbors, the United States and the world safer and more 
secure. We have made clear that we will do our part and we look to the 
Government of Pakistan to urgently take decisive steps.
    We have also made clear to Pakistan our enduring commitment to 
achieving peace and reconciliation in Afghanistan and of Afghanistan's 
importance to regional stability. We will continue working with 
Pakistan to achieve those goals, including through the trilateral 
process that Secretary Clinton launched in May 2009, and which has met 
twice this spring.

    Question. President Lobo and former President Zelaya of Honduras 
signed an agreement that has opened the way for Honduras to be finally 
reinstated to the Organization of American States. President Lobo has 
agreed not to pursue corruption charges against Zelaya, who has 
returned to Honduras.

  <bullet> (A) What role did the United States have in those 
        negotiations?

    Answer. The U.S. Government followed with great interest the 
developments that led to an accord signed on May 22 by Honduran 
President Porfirio Lobo and former President Jose Manuel Zelaya. Since 
the June 2009 coup d'etat that removed President Zelaya from power, the 
United States has remained an active player behind the scenes and in 
public, in Washington, through our Embassy in Honduras, and several of 
our overseas posts. We worked with the international community, as well 
as our partners in the hemisphere to underscore that the conditions 
that led to Honduras' suspension from the OAS had been resolved, and 
that the time had come for Honduras to be fully reintegrated into the 
organization.
    The initiatives by the Governments of Colombia and Venezuela were 
undertaken in the context of efforts to reintegrate Honduras by the 
Central American Governments, the United States, and Canada that made 
possible the May 22 agreement. Central American Governments and the 
Dominican Republic helped create the climate that enabled the Colombian 
and Venezuelan effort to succeed. The Organization of American States 
played a constructive role in advancing this initiative.

  <bullet> (B) What is the effect of this situation on the rule of law 
        and independent institutions in Honduras?

    Answer. The political crisis in 2009 revealed weaknesses in 
Honduras' democratic institutions. Furthermore, the economic slowdown 
caused in part by the political crisis deprived the Government of 
Honduras of the necessary resources to enable its law enforcement and 
judicial institutions to confront the menace of youth gangs and drug 
trafficking organizations.
    While we remain very concerned about the human rights situation, 
since the inauguration of President Porfirio Lobo in January 2010, 
following the successful negotiation of the Tegucigalpa-San Jose Accord 
and the holding of free and fair elections, Honduras has made 
significant progress in fortifying its rule of law institutions. Much 
work still needs to be done, and the U.S. Government has resumed its 
wide-reaching assistance programs, which include resources and 
technical support for Honduran police and prosecutors to help bolster 
their efforts to adequately investigate and prosecute alleged human 
rights abuses. Additionally, Honduras' reintegration into the OAS means 
Honduras will benefit fully from the OAS capacity to promote good 
governance.

  <bullet> (C) How confident are you that Mr. Zelaya will play a 
        positive role in Honduras?

    Answer. We welcomed the decision of the Honduran Supreme Court 
resolving the criminal cases against former President Zelaya in 
accordance with Honduran law. While the United States Government did 
not take a position on how the cases should be decided, we hope that 
their resolution, and former President Zelaya's return to Honduras on 
May 28, have contributed to national reconciliation. We will continue 
to urge former President Zelaya to remain constructive in whatever role 
he chooses to play.

  <bullet> (D) What impact would this situation have on the political 
        process and the integrity of democratic institutions in 
        neighboring countries?

    Answer. The unanimous condemnation by Western Hemisphere 
governments of the 2009 removal of former President Zelaya demonstrated 
commitment by those governments to the rule of law. That universal 
opprobrium, coupled with Honduras' suspension from participation in the 
Organization of American States and the loss of vital foreign 
assistance and foreign direct investment, provided a cautionary tale to 
actors in neighboring countries who might contemplate antidemocratic 
activities. The response to the political crisis in Honduras has shown 
that regional states and multilateral institutions stand ready to 
defend democracy in a region that once tolerated long periods of 
authoritarian rule and repeated military interventions in civilian 
rule. Honduras's neighbors understand that the health of democratic 
institutions in one Central American country has implications for the 
democratic institutions in all of them.

    Question. There is a perception for regional bureaus and embassies 
that working against human trafficking is a zero-sum game and that they 
should fight for improved rankings in the TIP report even if the 
evidence is marginal.

  <bullet> Will you commit to work to ensure that embassies and 
        assistant secretaries recognize that this is an important issue 
        to you and that they should intensify their work to foster 
        progress in human trafficking in their country or region?

    Answer. The fight against human trafficking is important not only 
to me, but also to Secretary Clinton, and it is a major policy priority 
for this administration. One of the most important tools we have in 
addressing Trafficking in Persons (TIP) is the annual Trafficking in 
Persons Report, which takes into account not only the findings of our 
colleagues at embassies around the world, but also information 
submitted by foreign governments, nongovernmental organizations, and a 
wide range of civil society actors. The end result is a report that 
represents Department-wide collaboration and consensus, with critical 
input from our officers and ambassadors in the field.
    These efforts do not constitute a zero-sum game. Over the 10 years 
since the report was first published, more than 120 countries have 
adopted new antitrafficking measures, victim identification has 
improved, and prosecutions are on the rise. Time and again, governments 
have credited the TIP Report as a factor motivating consistent action 
to address trafficking. If confirmed, as Deputy Secretary of State, I 
will ensure that fighting human trafficking remains a foreign policy 
priority, and I will work to strengthen our international efforts to 
combat this heinous crime.

    Question. An international arbitration panel has determined that 
the Russian Government expropriated Yukos and owes compensation to all 
investors in Yukos. As you stated in February, 2011, ``there are a 
number American investors in Yukos with several billion dollars' worth 
of investments at stake. However, U.S. shareholders do not have an 
investment treaty under which they can bring claims against Russia. I 
understand that some U.S. shareholders in Yukos have petitioned the 
State Department to espouse their claims against Russia.

  <bullet> Since there is no other effective means of redress, will the 
        State Department use espousal to secure compensation for the 
        U.S. shareholders in Yukos?

    Answer. Promoting the rights of U.S. investors is one of the U.S. 
State Department's top priorities in Russia and worldwide. The 
Department is monitoring closely the significant claims brought by 
Yukos investors from many different countries in international court 
and arbitration proceedings. We expect these decisions to shed light on 
many of the complex legal issues at stake in this matter. While the 
United States does not have a bilateral investment treaty with Russia, 
the Department has raised the matter of American shareholders' claims 
with the Russian Government and will continue to stress the interest of 
the USG in seeing these claims addressed in a manner consistent with 
customary international law protections for foreign investments.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
